                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-25A                                  Office of Inspections                                       May 2013




                Inspection of
    Embassy Baghdad and Constituent Posts,
                    Iraq




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

      Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

      Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

      Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


                               Table of Contents
Key Judgments                                                         1
Context                                                               3
Executive Direction                                                   5
   Continuity                                                         6
   From Glide Path to Rightsizing                                     7
Security: Still the Dominant Concern                                 11
   Glide Path and Security Staffing                                  11
   Risk Management Process                                           11
   Business as Usual: Accessing and Leaving the International Zone   13
Normalization: Resources and Management                              15
   Constituent Posts                                                 15
   Management Operations                                             18
   Department of Defense Contracting Transition                      19
   Locally Employed Staff: Recruitment, Retention, and Vetting       20
   The Iraq Service Recognition Package                              22
   Normalizing the Motor Vehicle Fleet Management                    23
   Offshore Support                                                  24
   Availability of Local Goods and Services                          25
Normalization: Program and Policy Implementation                     27
   Political and Economic Policy Coordination                        27
   Law Enforcement                                                   30
   Public Affairs                                                    30
   Iraqi Cultural Advisors                                           32
   Consular Section                                                  33
   The Office of Refugee and Internally Displaced Persons Affairs    36
Foreign Assistance: Planning, Coordination, Monitoring               38
   Planning and Organization                                         38
   Grants Officer Representatives                                    38
   Monitoring                                                        39
   Cost Sharing                                                      39
   The Ambassador’s Fund                                             40
   International Narcotics and Law Enforcement Programs              40
   Anti-Terrorism Assistance Program                                 41
   Humanitarian Mine Action                                          41
Stewardship of U.S. Government Resources                             42
   Construction Planning and Oversight                               42
   Bureau of Overseas Buildings Operations                           43
   Contract Management                                               43
   Personal Property Management                                      45
   Standard Business Applications                                    45
   Safety, Health, and Environmental Management                      46
   Internal Controls on Erbil Government Food Service Contracts      46
   Erbil Electrical System                                           47
Information Management                                               48
   Information Management Program                                    48
                                      iii
                         SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED

  Consulate General Basrah Information Management   51
  Consulate General Erbil Information Management    51
Work Place Environment                              53
  Recreation and Community Building                 53
List of Recommendations                             55
List of Informal Recommendations                    59
Principal Officials                                 61
Abbreviations                                       62
Appendix 1                                          63




                                    iv
                       SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Judgments
      Mission Iraq is closing facilities around the country, hiring Iraqi nationals, and making
       progress in rationalizing its staffing levels to transform a wartime operation into a normal
       diplomatic platform.

      The Ambassador and deputy chief of mission (DCM) provide uncommon continuity. In
       addition to extraordinary policy engagement, they lead the mission’s critical downsizing
       and rightsizing processes.

      The first phase of the civilian handover unfolded relatively smoothly, but the mission
       needs Department of State (Department) assistance with several rightsizing and military-
       to-civilian contract issues because short tours of duty and frequent personnel turnover
       inhibit long-term project implementation.

      The Department and the embassy are behind schedule in implementing a plan to oversee
       more than $5 billion in contracts, including those for life support and logistics. Without
       urgent Department action to create new positions and recruit and train personnel, the
       embassy will not have the staff required for adequate oversight, creating a risk of waste,
       fraud, and mismanagement.

      The Department needs to improve planning and oversight of more than $500 million in
       construction projects, many plagued by construction delays, disagreements between the
       embassy and Washington, and insufficient oversight. Interim facilities at two consulates
       and the Baghdad support center are too costly and not suitable for long-term operations.

      The mission has several unique and costly security programs but has not done an
       interagency risk management study to determine which are still required and which are
       no longer necessary. The mission should also apply rigorous scrutiny to several costly
       management programs, such as aviation and medical, put in place prior to the departure
       of U.S. forces.

      Despite some progress in hiring Iraqi nationals, the mission remains dependent on
       contractors to provide virtually all services.

      Iraq is likely to continue receiving substantial Department-funded grant assistance ($70
       million planned in FY 2014). Oversight and monitoring have been ongoing challenges in
       Iraq’s security environment, made more difficult by staff reductions. The embassy should
       advise Washington when it lacks sufficient resources to provide adequate oversight.



All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.


                                        1
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

The inspection took place in Washington, DC, between January 2 and January 29, 2013; in
Baghdad, Iraq, between February 2 and March 21, 2013; in Erbil, Iraq between February 9 and
16, 2013; in Basrah, Iraq between February 18 and 21, 2013; and in Amman, Jordan, between
February 19 and 21, 2013. (b) (6)




                                       2
                          SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Context
         Iraq remains a nation in transition. As a result of the installation of a fully sovereign
government in December 2010 and departure of U.S. combatant forces in December 2011, Iraqi
political leaders have gained greater authority and responsibility. Insecurity and political
violence remain facts of life, however. The 4,500 Iraqi deaths in 2012 due to political violence
fall far below levels seen at the height of the insurgency but continue to cast a pall. Political
tensions remain high—between the Shia majority and the once-dominant Sunni minority;
between the central government and the Kurdistan Regional Government; and among political
factions within the Shia community.

        Economically, Iraq is also in transition. Oil production reached 3.2 million barrels per
day in 2013, the highest level in decades. Iraq’s Gross Domestic Product grew 8 percent in 2012
and is forecast to grow at that rate for several more years. Yet, almost all the growth has come
from the oil sector. Outside oil, little is being done to restructure the state-dominated economy,
and foreign investment is negligible. Agriculture remains depressed. Per capita income falls far
below levels in the Gulf states but is higher than in Middle East countries without significant oil
reserves like Egypt or Syria. Oil revenues seem likely to keep budgets in surplus through the
decade.

        The U.S. mission is part way through its own transition, where all entities, including the
military elements, work under chief of mission authority. Achieving U.S. goals now requires the
normal, and sometimes frustrating, give-and-take of a typical bilateral relationship. Embassy
leadership is challenged by an outsized, legacy logistical support network. The mission is
reducing and consolidating its presence in Baghdad and rationalizing operations at the three
consulates in Erbil, Basrah, and Kirkuk, reducing the Department’s presence at the diplomatic
support center outside Erbil, and planning the eventual reduction of staff and facilities at the
diplomatic support center in Baghdad, which houses aviation and medical facilities. Policy
decisions at the highest levels are driving the normalization of both personnel and financial
resources. The embassy is taking steps to reduce the mission’s headcount from over 11,500 in
January 2013 to 5,500 by January 2014. The initial tranche of staffing cuts, completed on March
1, 2013, was known as “glide path.” Programs were phased out, and employees—both direct
hires and contractors—were sent home early. Embassy leadership has begun a rightsizing1
exercise to match the hastily reduced staffing levels with programs and priorities. What “normal”
will be in both U.S.-Iraq relations and the shape and size of the U.S. diplomatic presence has not
yet been finalized.

        Although the threat environment has improved, security remains the overarching factor in
all program and policy decisions and increases the cost of doing business in Iraq. The security
budget last year was $698 million. As long as the staff cannot move safely and independently
outside compound walls, maintaining a robust security apparatus and meeting the life support
needs of the mission staff will require significantly more financial and personnel resources than
at other U.S. missions.

1
 Rightsizing is the framework agreed to by the Office of Management and Budget that emphasizes aligning the
number and location of staff with foreign policy priorities, security, and cost constraints.
                                            3
                               SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

         Because of the danger and hardships associated with serving in Iraq, the majority of U.S.
direct-hire employees serve 1-year tours of duty with multiple rest and recuperation breaks.
Many of those employees have little or no regional experience; therefore, contact overlaps, local
staff training, and multiyear planning are imperative. Third country nationals, originally recruited
from embassies worldwide as temporary experts, comprise 24 percent of the non-U.S. direct-hire
staff in Baghdad and fill most of the embassy’s senior non-U.S. positions. Their presence, while
invaluable during the transition from a military operation to a civilian one, is now, in many
cases, limiting the training and empowerment of Iraqi staff. Support costs for third country
nationals are also high. The embassy is focused on hiring Iraqi staff to replace third country
nationals, both direct hires and contractors, wherever possible.2

         Sustained improvements in the security climate could result in longer tours, authorization
for accompanying adult dependents, access to goods and services on the local market, increased
internal travel, a reduction in the number of rest and recuperation breaks, ease of employment for
Iraqi citizens, and enhanced operational effectiveness. Such changes would contribute to making
the mission more “normal,” but the time frame depends on factors beyond U.S. control.

        Funding levels from multiple sources in support of Mission Iraq operations have been so
substantial that the mission has not been subject to normal fiscal constraints, nor has it evaluated
process and program priorities rigorously. The Department allotted $3.23 billion for Mission Iraq
operations in FY 2012. The mission also oversaw $1.33 billion in foreign assistance in that same
time frame.3 Inevitably, the contingency funding that is a remnant of Iraq’s status as a war zone,
and enabled so much of the mission’s growth and security programs, will dwindle. Even with the
Department’s increased focus on protecting personnel and facilities in the aftermath of the
Benghazi attack, the mission is considering ways to reduce its operational and security budgets,
although the sheer size and scope of the physical plant, both in Baghdad and at the consulates,
will require significant funding for years to come.




2
  Support costs for third country national contractors and direct-hire staff, such as lodging, meals, and rest and
recuperation travel, average $68,000 per person per year in addition to salaries, which often exceed locally
employed staff salaries because of supplemental benefits packages.
3
  This report uses budget estimates from FY 2012. Funding comes from many sources and is constantly changing.
Consequently, no resource and staffing chart accompanies this report.
                                             4
                                SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Executive Direction
A New Diplomatic Presence Paradigm

        Mission Iraq is a test bed for a new approach to U.S. overseas presence, often called
expeditionary diplomacy.4 Just over a decade ago, the Department would have shuttered this
diplomatic mission in the face of violent threats and a host government unable to check civil
unrest or respond to terrorist attacks. Because the U.S. Government believes it is important to
engage directly with Iraq’s Government and people, however, the mission requires an
unprecedented level of security and life support. Every day, mission leaders conduct risk
assessments, which now are influenced by the Accountability Review Board report on Benghazi,
Libya, in weighing how to advance U.S. interests countrywide.

Right Time, Right Leaders

        Embassy Baghdad is fortunate that its two most senior Department leaders are serving in
their second consecutive year. They have provided a level of continuity that is not common for
this mission. Both the Ambassador and DCM have extraordinary policy management skills. Both
also recognize the need to engage in mission management. Many obstacles that arise in the
mission’s routine operations require resolution at the highest levels of the Iraqi Government.
Only the Ambassador or DCM can do so effectively. Their attention to detail while allowing
sections and agencies to do the actual implementation has been essential to the mission’s success
in reducing the size and cost of the Department’s largest overseas mission.

         The Ambassador leads a mission facing a mix of challenges that separately would be
daunting for any diplomatic post but are constant in Iraq. The Ambassador engages in almost
daily rounds of shuttle diplomacy among sectarian and ethnic political leaders to promote
political progress. His familiarity with these politicians—their biographies and self-interests—is
encyclopedic, and he uses that knowledge to advance the U.S. goal of a stable, democratic, and
unified Iraq. Having been DCM immediately before becoming Ambassador, he understands the
mission’s management challenges and the toll that the mission’s non-stop reinventions take on
its staff. A high mark for a leader is the number of followers who say their deepest concern is
that they will disappoint him. Inspectors heard that expression of loyalty to the Ambassador
repeatedly.

        The DCM has been co-architect and co-implementer of the largest and most rapid
transition of any diplomatic mission since the civilian surge of 2006-07. He has paid particular
attention to the plight of staff members whose positions were abruptly eliminated in the glide
path process. He was instrumental, for example, in dogging the Department to provide some of
the benefits that encouraged employees to volunteer for service in Iraq in the first place when

4
  Expeditionary diplomacy is a concept associated with the Transformational Diplomacy Initiative announced by
Secretary of State Rice in 2005. First linked to crisis response, it includes common elements: challenging work and
difficult living conditions; operating in unsecure environments; long work hours and no rest days; no accompanying
family members; short tours of duty and frequent rest and recuperation breaks; facilities to feed and provide other
life support not otherwise available; prefabricated or other temporary housing; and numerous contract guards and
service providers, usually from third countries working around the clock.
                                             5
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

downsizing eliminated their jobs early. Before becoming DCM, he was political counselor in
Baghdad for a year. Unlike many DCMs with a large managerial role, he has also taken on
policy responsibilities that leverage his former contacts and experience. He is steeped in the
Ambassador’s approach to policy, so he can speak with the Ambassador’s voice whenever
necessary.

Communication and Coordination

         In this sprawling mission, with specialized teams the size of small embassies laboring in
virtual isolation, communication and coordination require full-time attention from the
Ambassador, DCM, and other senior leaders. Communication from the Ambassador to section
chiefs and agency heads is exemplary. The Ambassador starts each week by meeting with all 21
country team members. On subsequent mornings, he chairs a smaller senior staff meeting. These
meetings are effective for conveying information to the Ambassador and obtaining his guidance.

        The rapid pace of downsizing exposed instances where sections and agencies were not
communicating effectively. Before the inspection, the mission had already identified some issues
that called for working groups or other coordination mechanisms to address new or unrecognized
issues. For example, creation of a law enforcement working group in 2012 led to fewer
uncoordinated meeting requests with Iraqi officials. The inspectors identified other gaps, such as
anti-money laundering/counterterrorism financing policy coordination, and in every case, the
embassy pulled together the right people to redress communication problems. As the mission
transforms from gargantuan to merely huge, additional coordination gaps will emerge and
require mission leaders’ attention.

         Individual staff morale is generally satisfactory. Many mission staff members told
inspectors they felt morale slipping when positions and programs were eliminated in the glide
path process. They thought communication about impending changes could have been better.
Once downsizing targets were set, mission leadership engaged more frequently and openly with
staff through town hall meetings and smaller social engagements.

First- and Second-Tour Staff

        The DCM embraces his responsibility for mentoring and developing entry-level staff.
Although he writes 24 rating and review statements for more senior officers, he counsels and
prepares reviewing statements for all 11 of the embassy’s untenured officers. He gathered the
embassy’s first- and second-tour staff when they arrived, emphasized his interest in an entry-
level program, and listened to their interests and expectations. He encouraged their plans for
speaker and outreach programs. He used his residence and representation funds to support their
plan to bring together entry-level officers from other embassies and from the Iraqi Foreign
Ministry to exchange experiences and ideas. The first- and second-tour staff told inspectors they
could not believe how much attention the DCM paid them given his many other duties.

Continuity

       Continuity, purpose, and mission are all affected by 1-year tours and the small number of
experienced Iraqi staff. Some mission elements develop plans to guide their work. At the
                                                6
                           SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

consulate general in Basrah, for example, the consul general and his staff created a
comprehensive plan in early fall when they arrived, and they review it periodically to evaluate
progress and guide future work. This approach seems to give all staff a shared sense of mission.
However, unless the planning process extends beyond the tenure of the current team, there is risk
that their successors will not be able to continue the accomplishments and goals of the 2012-13
team. The OIG team discussed with the Basrah principal officer a forward-looking effort to
document achievements and remaining tasks to benefit the 2013-14 staff. A similar planning
process for other mission elements would contribute to continuity.

          Informal Recommendation 1: Embassy Baghdad should instruct sections and other
          mission elements to record accomplishments and remaining tasks for their successors
          systematically.

         Many Washington-based employees have more historical knowledge than some
employees working in Iraq today. They provide much-needed continuity. The situation in Iraq is,
however, in constant flux, and Washington may not always make decisions based on today’s
reality. The Department provides policy instruction and an operational and programmatic budget
to a normal mission, which then has considerable autonomy to implement instructions and
allocate funds. In theory, Mission Baghdad has autonomy; in practice, Washington tends to
decide and guide. The glide path, for example, was a numbers-driven exercise that involved
Washington’s biweekly, high-level oversight and direction. As for some of the mission’s costly
programs, the OIG team noted that their impetus comes from Washington, not from Baghdad.
Assistance programs, such as humanitarian demining and the Ambassador’s Fund to promote
reconciliation and stability, originate in Washington but require the mission to support those
programs at the same time that Washington is directing reductions in staff responsible for their
monitoring. Some construction and security projects barrel ahead with little regard to the
mission’s rapidly changing circumstances. As long as Iraq draws high-level Washington
attention and receives massive resources, it may be unrealistic to expect the mission to play a
normal role in crafting its own future. However, normalization will require the Department’s
ceding more decisionmaking and priority setting to mission management.

From Glide Path to Rightsizing

        OIG inspection reports from 20095 and 20106 included recommendations for rightsizing
the mission. It was not until early 2012, however, that the mission commenced a staffing review
with concurrence and oversight from the Deputy Secretary’s staff and the Bureau of Near
Eastern Affairs. The glide path exercise accelerated between January and March 2013, and the
mission transitioned from downsizing to rightsizing on March 1, 2013. In fall 2012, OIG’s
Office of Audits, Middle East Region Operations, conducted field work for an audit of mission
rightsizing efforts. The audit objective is to assess the process the Department used for
establishing short- and long-term staffing for its diplomatic presence in Iraq and to determine
whether mission infrastructure and construction requirements align with staffing plans. At the
time of this inspection the audit report had not been finalized. To avoid duplication, there are few
rightsizing-specific recommendations in this report.

5
    Inspection of Embassy Baghdad, Iraq, Report Number ISP-I-09-30A, July 2009.
6
    Compliance Followup Review of Embassy Baghdad, Iraq, Report Number ISP-C-11-08A, October 2010.
                                            7
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        Although the mission’s glide path efforts were necessary, and rightsizing is also a worthy
effort, mission leaders are disadvantaged in carrying out a process that has been conceived in
Washington. Glide path began with an assumption of about 16,000 total direct-hire and contract
personnel under chief of mission authority; this number was, all acknowledge, a best guess. Even
post-glide path personnel numbers are better but not entirely reliable. Some budget numbers,
such as foreign assistance, are generally accurate, but others, such as canine screening and
emergency reaction team program costs, are opaque to the mission because Washington controls
them.

         People and program numbers are not the whole rightsizing story. To date, Washington
has covered the cost of doing business in Iraq for almost all U.S. Government agencies, a
practice that has masked actual operating costs and concentrated decisionmaking in Washington,
contrary to principles of transparency and local empowerment. With the FY 2014
implementation of International Cooperative Administrative Support Services (ICASS) the
Department will be able to identify and charge other agencies for mission-provided support,
which could result in other agencies reducing staff further when they have to pay their share of
facility and security costs. Because much of the mission’s budget and management oversight
comes from Washington, the implementation of interagency cost sharing will also move the
mission a step closer to practices at other diplomatic missions. The use of ICASS service
standards, workload metrics, and cost centers will provide a baseline to compare Embassy
Baghdad with similar missions.

The Office of Security Cooperation-Iraq

        The Office of Security Cooperation-Iraq (OSC-I) has operated as successor to U.S.
Forces-Iraq, the combatant element that shared responsibility for advancing U.S. interests in Iraq
until the end of 2011. The commander is a lieutenant general. On arrival in September 2011, he
anticipated leading a U.S. force of 10,000. That number dropped to 5,000, then 3,500, before
settling at about 300 during 2012. As part of mission downsizing, the Ambassador set OSC-I’s
authorized staffing at 170 as of March 1, 2013, and 125 by September 30, 2013. Its next leader
will also be a lieutenant general and the first designated senior Defense official/Defense attaché.
As part of the mission’s downsizing, OSC-I will move to office and living spaces on the embassy
compound by September 2013.

        In addition to a dramatic drop in staff, Embassy Baghdad has seen Foreign Military
Financing allocations fall from $850 million in FY 2012 to a proposed $500 million in FY 2014.
Train and Assist allocations under Title 10, U.S. Code, totaled more than $500 million in FY
2012; the Train and Assist program will end in FY 2015 unless the Government of Iraq decides
to fund it or Congress extends special authority for OSC-I.

        Since 2011, OSC-I has faced more changes of title, responsibility, numbers, assistance
budgets, and location than any other mission element. The transition process has not always been
smooth. It was not until early December 2012, for example, that Washington officials made
explicit that all agencies in Iraq, including OSC-I, were under chief of mission authority. In fall
2012, individual sections of the mission worked separately with elements of OSC-I to plan the
move to the embassy compound. Recognizing that coordination and communication were
inadequate, the regional security office staff initiated, and invited the management section to
                                                   8
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

join, a formal planning process with OSC-I staff. Even though there were still difficult and
unresolved transition issues at the time of the inspection, the mission would not be on track to
accomplish OSC-I integration by the target date without the planning and communication
process begun last fall.

A 24/7/365 Culture

        Mission employees work long, hard hours. Their work ethic is a norm at an expeditionary
mission. Mission staff respect the Sunday to Thursday local work week, but most also work on
Fridays because Washington expects embassies to be available when the Department is open for
business. In recognition of the de facto 6-day work week in Iraq, mid-level Foreign Service
generalists receive a 20 percent salary differential, and specialists are automatically authorized
up to 35 overtime hours per pay period when properly documented. Largely confined to the
embassy compound because of security concerns, many have little to do but work. And they do,
often 7 days a week.

         Before the inspection, mission leadership encouraged staff to take at least 1 day of rest
each weekend. However, the front office kept official office hours on both Friday and Saturday
afternoons, with a complement of office management and information management staff on duty.
The management section released routine administrative notices and management policy
statements on weekends, demonstrating that they too were used to working even when there was
no compelling need to do so. Abundant resources made such arrangements seem virtually cost
free, leading to practices such as summoning staff on weekends to work on important, but not
critical, tasks. When inspectors raised these issues, the Ambassador designated Saturdays as a
“day of no scheduled appointments,” with duty staff on call rather than in the office.

        Iraq receives close attention from high-level policymakers. Weekly senior-level meetings
are common. The Ambassador or other mission officers often participate via digital video
conference. The meetings take place outside Baghdad’s normal work week and working hours,
usually in the early evening. The latest meeting start time during the inspection was 11:30 p.m.
Friday meetings happen regularly. Embassy staff regards Friday and late-starting meetings as a
price of being in Iraq. Preparation for and participation in meetings that have been set at
Washington’s convenience extend the work day for employees already working long hours and
reduces their effectiveness the following day. An 8-hour time difference in the late fall and
winter months leaves a limited number of hours to schedule meetings at reasonable times for
Baghdad staff. The situation is not as bad as in Kabul and Islamabad in 2009, when Washington
routinely scheduled meetings to start at 2:00 a.m., but it is inconsiderate and inefficient.

Recommendation 1: The Bureau of Near Eastern Affairs should request the Department’s
Executive Secretary to advise interagency counterparts to schedule meetings including Embassy
Baghdad Monday through Thursday and no later than 8:00 p.m. Baghdad time. (Action: NEA)

Equal Employment Opportunity

       The Ambassador and DCM have demonstrated appropriate attention to Equal
Employment Opportunity. With thousands of support and security contractors and third country
national staff from dozens of countries, the mission is a picture of international diversity.
                                                 9
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

However, there are only three women on the 21-member country team, and women represent a
small percentage of staff at this unaccompanied mission (23 percent of U.S. direct hires in
Baghdad; 19 percent in Erbil; and 9 percent in Basrah). In this environment, respect for Equal
Employment Opportunity has not always been maintained. In 2012, the Ambassador and DCM
asked the Office of Civil Rights to provide Equal Employment Opportunity training to mission
personnel, including contractors. They have also taken commendable steps to institute a more
normal diplomatic environment, to include encouraging civilian dress and terminating
assignments for alcohol abuse.




                                      10
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Security: Still the Dominant Concern
Glide Path and Security Staffing

        More than any other factor, the security environment affects how all mission elements do
business in Iraq. In light of the mission’s shrinking footprint and decreasing levels of violence
against Americans countrywide, the mission is looking at ways to normalize its security platform
even in the post-Benghazi climate. By far the largest group in the mission, with over 3,300
direct-hire and contract employees, the security office has shrunk 34 percent since January 2012
when the staff consisted of nearly 4,900 employees. The cost savings associated with these
reductions has been significant. Between FY 2011 and March of FY 2013, reductions in
Worldwide Protective Services security staff alone saved approximately $352 million. Because
the number (seven separate compounds) and size of properties slated for permanent retention
determine security staffing levels, opportunities for further significant reductions are limited.

        The regional security office is taking steps to hire as many Iraqis as possible on the
security staff. During the inspection, the Baghdad security office was assessing the feasibility of
Iraqi protective details and developing plans to add Iraqi perimeter guards—initially in unarmed
positions. In the north of Iraq, where the security environment is better, the addition of Kurds to
the security staff in Erbil is ongoing and expected to progress more quickly. Legitimate security
concerns and limited numbers of suitable candidates for Baghdad and Basrah, however, suggest
that adding significant numbers of armed Iraqis to the local guard forces will be a slow process.
The reduction in staff is only one part of rightsizing the security profile. (b) (5)



Risk Management Process

        Several security programs at Embassy Baghdad are atypical. The sense and warn system
(identifies, tracks, and warns employees of incoming rocket and mortar fire), biometric access
control (daily iris scans or fingerprinting of local employees), emergency reaction teams, and
explosives detection dogs are but a few. Several programs, including the sense and warn and
biometric programs, are legacy systems inherited from the Department of Defense (DOD).
Although protecting embassy employees is paramount, the price tag for these countermeasures is
significant. The chart below highlights the annual program costs associated with Iraq’s unique
security programs.




                                       11
                           SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED



                      Unique Security Programs                                   Annual Cost

    Sense and Warn System                                                         $20,632,208
    Biometrics Access Control Program                                              $5,289,986
    Biometrics Badging Program                                                     $2,709,934
    Emergency Reaction Teams                                                      $36,228,876
    Canine Screening Program                                                      $50,939,224
    Electronic Countermeasures Program                                            $13,890,590
    Green Radio Program                                                            $3,181,786
    Modular Tactical Operations Centers                                            Unknown7
    Infrared Camera System with operators                                          $3,992,090
    Total Annual Operating/Maintenance Cost                                      $136,864,694
    Total Approximate Value of Equipment                                         $160,000,0008

                       Table 1: Costs Associated with Unique Security Programs9

        Overseas Security Policy Board standards dictate basic countermeasures for high-threat
missions, but, in previous years, the Department and the mission did not find those
countermeasures sufficient to mitigate all security risks in Iraq. As a result, the embassy
embraced several unique security programs to address what it perceived to be extraordinary
vulnerabilities. With the departure of U.S. forces from Iraq and Department pressure to meet
glide path targets, the embassy has not had time to undertake the prescribed risk management
process to determine if all such mitigation is still necessary. A well defined risk management
study, described in the Foreign Affairs Handbook, 12 FAH-6 H-511, would provide the mission
the information it needs to make any difficult decisions. Until such a study is completed, neither
the Department nor embassy leadership can determine if all the special programs are essential or
effectively decide when to eliminate them. Costly programs could be deployed, at taxpayer
expense, for longer than needed or when they are not needed at all. A risk management study
could also recommend retaining or even increasing special security programs.

        Such a complicated risk management study requires continuity and objectivity. Embassy
staff on 1-year tours can provide valuable input to such a study but cannot coordinate the effort,
which could take several months. Neither is it advisable for Department offices that are vested in
the development or deployment of certain systems and programs to lead such an evaluation. An
interagency working group, which can speak for all agencies represented in Baghdad, is best
positioned to undertake the risk management study.

Recommendation 2: The Bureau of Diplomatic Security, in coordination with Embassy
Baghdad, should convene an interagency working group to complete a formal risk management
study and determine if current security countermeasures in Iraq are appropriate. (Action: DS, in
coordination with Embassy Baghdad)


7
  Estimated cost for two tactical operations centers is $25 million.
8
  The modular tactical operations centers constitute $25 million of the total.
9
  Data compiled from Department and embassy sources.
                                             12
                                 SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

Opportunities for Savings in Security-driven Programs

       Although not related to security programs per se, the following four categories of
expenses exist primarily because of the security environment that prevailed before the late-2011
departure of the U.S. military. With continued improvement in that environment and progress
toward normal operations, some of these expenses could be reduced or eliminated in the next few
years.

                     Security-Driven Expenses                                         Annual Cost

     Food for U.S. Government Employees and Contractors                               $58,000,000
     Employee Overtime                                                                $11,000,000
     Third Country National Hiring                                                    $10,000,000
     Baghdad Diplomatic Support Center Operations                                    $102,000,000
     Total Approximate Costs                                                         $181,000,000

                         Table 2: Mission Baghdad Security-Driven Expenses10

        Greater efficiencies in these areas could reduce operating expenses by tens of millions of
dollars or more annually. The embassy and the Department are taking reasonable action in each
case to seek efficiencies as circumstances evolve. For example, the Deputy Secretary mandated a
policy of hiring 50 percent of contractor staff from the local population to reduce expenses
associated with life support contracts that, in turn, drive up the embassy’s operating costs.

Business as Usual: Accessing and Leaving the International Zone

         Two of the security program’s most intractable problems involve getting customers and
visitors into the international zone where the embassy is located and getting embassy employees
out to do their advocacy, reporting, and programmatic work. Iraqi Army personnel maintain
check points to control access to the international zone, but the check points hinder the free flow
of embassy employees, job applicants, invited visitors, refugees, and consular clientele—
including U.S. citizens—to the embassy. To date, the embassy has avoided subjecting many of
its employees and customers to scrutiny and potential rejection at these Iraqi check points by
maintaining an access point to the international zone through U.S.-controlled property abutting
the red zone.11 With the expected return of this property to Iraqi control in late 2013, the
embassy will lose direct access from the red zone and has not yet identified alternatives. In
Islamabad, a private, pay-for-use shuttle service transports passengers to and from embassies in
the diplomatic enclave, and a similar model could be useful in Baghdad. The embassy has not yet
begun to identify what it will need when the existing access point closes, coordinate planning
with all sections, or prepare a strategy for eventual negotiations with the Government of Iraq. It
is not too early to begin long-range planning for this eventuality.



10
  Data compiled from Department and embassy sources.
11
  The red zone is the name given to the neighborhoods of Baghdad that are outside the international zone. The red
zone is less secure and experiences higher instances of violent extremism.
                                            13
                                SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 2: Embassy Baghdad should implement a strategy, with
       appropriate milestones, to ensure future access to the embassy for employees, refugees,
       consular customers, and other visitors.

        Embassy employees traveling outside the international zone in Baghdad require
protective security escorts. The security office’s protective security teams averaged 370
movements per month in the first 5 months of FY 2013 for a total of 1,846 movements. FY
2013’s total estimated cost for protective security movements is approximately $49.8 million.
The mission is planning adjustments to team operations that will reduce movement costs
somewhat. The classified annex to this report provides a more comprehensive review of this and
many other security programs at Embassy Baghdad and its constituent posts in Erbil and Basrah.




                                      14
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Normalization: Resources and Management
Constituent Posts

        Mission Iraq includes consulates general in Erbil and Basrah, a consulate in Kirkuk, two
diplomatic support centers near the Baghdad and Erbil airports, and four OSC-I facilities slated
for handover to the Government of Iraq by the end of 2013. At the time of the inspection, only
the Erbil and Basrah consulates general were fully operational, and the Kirkuk consulate was
operating from Erbil. The diplomatic support center outside Baghdad is used primarily for
support functions, and the one at the Erbil airport is consolidating its Department functions with
those of the Erbil consulate general. The primary purpose of the three consulates is to engage and
report on political and economic activities in their respective regions as opposed to providing
consular services; therefore, geography plays a pivotal role in their location.

        All sites occupy legacy military compounds, and the cost of adapting them for diplomatic
use, securing their large perimeters, and providing electricity, food, water, and sanitation is
analogous to the expense of running a large modern embassy elsewhere. All of the facilities are
temporary and do not meet long-term needs. Living and working environments are very difficult,
making it hard to encourage U.S. staff to remain beyond the basic 1-year tour of duty. The
Department and embassy leadership remain committed to long-term diplomatic presences at the
three consulates and have not eliminated many direct-hire personnel at those locations.

        Embassy communications with the constituent posts is generally good, with weekly
management digital video conferences and frequent executive office and political and economic
section phone calls. Actual embassy support during staffing gaps or with complex construction
project planning has been inconsistent. There is one imbalance in the embassy-consulates
relationship. Almost all reporting from the consulates has to be cleared by one or more officers at
the embassy before transmission to Washington, but reporting from the embassy about
developments in the regions covered by the consulates is less frequently fact checked or cleared.
The embassy often makes decisions without consulting or informing the consulates, including
setting meeting times without checking on the consulates’ availability, holding town hall events
without linking in the constituent posts, or reserving representational funds until it is too late for
the consulates to make good use of them. The OIG team counseled embassy leadership on ways
to address this imbalance.

Basrah

        The Government of Iraq would like to reclaim the 108-acre compound that houses the
U.S. consulate general—a former British forward operating base 12 miles from Basrah on an
Iraqi military compound adjacent to the international airport. The embassy is committed to
maintain a presence in the south of Iraq, not least because it is the largest source of new oil to
market in the world, and many U.S. companies are pursuing commercial opportunities there. The
local government supports a U.S. presence, and the Government of Iraq committed in a 2004
bilateral agreement to provide a permanent site for consulate operations. To date, however, there
has been no progress identifying a future site. The U.S. Government does not have a land use


                                        15
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

agreement for the current compound. The consulate general’s hold on the property remains
tenuous.

        At the time of the inspection, the Department was completing a $150 million interim
construction project to provide basic security and infrastructure upgrades, but the facility and its
isolated location are not suitable for a diplomatic mission on more than a temporary basis.
Employees live in deteriorating containerized housing units; the compound has no central
generator grid or access to city power; all supplies, including food, have to be trucked to the
compound; and the security support needed to interact with contacts in Basrah City is costly.
Operating costs to maintain the current, oversized facility and its hundreds of guards and life
support staff are approximately $100 million per year. The Department has not given priority to
or identified funding for a purpose-built facility.

         Basrah’s ability to sustain operations is fragile under the best of circumstances because of
its location at the end of a supply chain beset by shipping delays, security concerns, and the
difficulty in recruiting and retaining U.S. direct-hire staff. As long as the consulate general
occupies a sprawling compound that requires nearly 1,200 support staff, efforts to reduce costs
and develop a long-term diplomatic presence commensurate with U.S. interests will remain on
hold. If the Department cannot decide soon on Basrah’s future, it will at the very least have to
fund interim upgrades to make facilities livable.

Recommendation 3: Embassy Baghdad, in coordination with the Bureau of Near Eastern
Affairs, should decide on the size and the nature of the diplomatic platform needed in Basrah.
(Action: Embassy Baghdad, in coordination with NEA)

Erbil

        Within 3 years the U.S. presence in Erbil, capital of the Iraqi Kurdistan region, evolved
from a provincial reconstruction team to a regional reconstruction team to a full-fledged
consulate general. In addition to its core advocacy and reporting work, the consulate general is
standardizing operations, training local staff, and adapting former private residences, some in
serious disrepair, into office and shared residential accommodations. Providing security, backup
power, and computer connectivity to a small neighborhood, including a half dozen commercial
ventures that predated the U.S. presence, is a novel venture for the Department.

         The embassy did not develop a construction master plan before it began upgrade projects,
resulting in several systemic problems such as piecemeal funding and the lack of a unified
grounding system. At the time of the inspection, the management section was overseeing 10
construction projects as well as several residential renovations with little assistance from the
embassy’s facilities maintenance section. At the same time, 36 direct-hire employees at the
nearby Erbil Diplomatic Support Center were preparing to consolidate operations on the Erbil
compound. The consulate general was also finalizing construction on its first consular section
amidst doubts about visa implementation in the Iraqi Kurdistan region (see the Consular section
of this report for discussion of the visa issue).

        For several reasons, operating costs in Erbil are significantly lower than at other
constituent posts in Iraq—$4.1 million per year. The compound operates primarily on city
                                                 16
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

power; small commercial outlets for food and other supplies minimize life support requirements;
the security situation permits occasional movements off compound for shopping and recreation;
and it is relatively easy to hire local staff and contractors not requiring life support from among
the hospitable Kurdish population.

         The local government is donating a 50-acre property for the construction of a permanent
U.S. consulate general, with completion envisioned in 2017. The Department had not completed
a rightsizing study for Erbil before the mission initiated negotiations with the local government
to acquire the donated land. The parcel exceeds the compound size at some large missions. The
Department expects the site to house an office building, a Marine security guard residence, a
principal officer residence, and possibly staff living quarters, and is considering other options for
the excess property. Securing such a large perimeter and maintaining extensive grounds will
entail significant expenditures and personnel.

Recommendation 4: The Bureau of Overseas Buildings Operations should plan the new Erbil
consulate compound based on the 2013 rightsizing study. (Action: OBO)

Kirkuk

         The embassy is committed to maintaining a presence in Kirkuk, one of Iraq's most
contested and ethnically diverse provinces. The Kirkuk consulate occupies temporary offices on
the governor’s compound following the closure of the U.S. military installation where the
consulate was originally located. Since December 2012, the security situation has limited
Kirkuk’s operations. The three remaining U.S. staff work from Erbil, and the locally employed
staff often work from home. For the moment, the embassy has decided to maintain three Kirkuk
officers in Erbil, with provisions for them to commute between the two cities as often as the
security situation permits. The mission is still exploring post-Benghazi options for improving
security at the premises the governor has allocated the consulate in his compound.

Baghdad Diplomatic Support Center

        The Baghdad Diplomatic Support Center (BDSC) compound is a 350-acre facility
adjacent to Baghdad International Airport. BDSC’s staff of 1,600 contractors and employees is
larger than all but a handful of embassies, and its operating budget exceeds $100 million
annually. It serves as the primary air transit hub for all personnel assigned to Iraq. BDSC also
hosts a hospital, a pouch and mail distribution center, and representatives from 16 separate
organizations associated with the DOD and other Federal agencies.

        The Department and the mission are seeking ways to reduce operations at BDSC by FY
2015, and OBO has a notional plan to relocate essential functions to the chancery compound.
The Department has already begun to consider reducing its aviation support arrangements.
Aviation services will continue through at least 2013 to facilitate the departure of OSC-I from
locations around the country and to provide emergency medical air transportation. Like
Consulate General Basrah, BDSC is a former military base that consists of modular buildings not
intended for permanent occupancy. The compound’s infrastructure cannot be readily
reconfigured for a smaller footprint because of the layout of physical plant elements such as
water treatment and power generation facilities. After OSC-I’s reductions and the expected
                                                 17
                            SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

termination of some Embassy Air services late in 2013, other support functions performed at
BDSC can be transferred to the embassy.

Recommendation 5: Embassy Baghdad, in coordination with the Bureau of Overseas Buildings
Operations, should prepare an information memorandum for the Bureau of Near Eastern Affairs
outlining steps for an orderly closure of the Baghdad Diplomatic Support Center and relocation
of the facility’s functions. (Action: Embassy Baghdad, in coordination with OBO)

Management Operations

        Under the direction of the minister counselor for management, Embassy Baghdad has
played a key role in the military-civilian administrative transition, which involved monumental
efforts over the last year to close dozens of facilities, send home thousands of employees and
contractors, develop contracting mechanisms to replace DOD support arrangements, and increase
the number of Iraqi nationals working in the mission. The initial stages of the transition after the
departure of U.S. combat troops proceeded far more smoothly that many observers had
predicted. Scores on OIG’s customer service surveys reflect progress in creating a more
hospitable environment for employees, although the consulates still operate under harsh
expeditionary conditions.

        The embassy has done a good job working with OSC-I and Washington to map out a
transition plan to assume logistics and security responsibilities from DOD. Washington’s close
and intensive communication has provided a strong basis for identifying problems and making
necessary course corrections, but at the cost of transparency and local control. One exception,
however, is the embassy’s relationship with OBO. The embassy is completing more than 100
construction projects with a total value of about $500 million.12 Some have been beset by
construction delays and fractious disagreements between the mission and OBO over the scope
and progress of construction activities.

         Administrative operations in Iraq differ fundamentally from those of a traditional
diplomatic mission in their scale, cost, and composition. Human resources and financial
management services are supported by regional and offshore offices, while general services and
facilities functions rely on Department and DOD contractors. The embassy is top heavy with
U.S. personnel, contractors, and third country nationals who perform work that elsewhere would
be done by locally employed staff. Many contractors live on compound and themselves incur
about $68,000 annually per person in support costs.

        Normalizing operations in this environment will take years. At the time of the inspection,
the final contours of mission staffing and organization remained tentative pending a detailed
rightsizing exercise. The management section is pursuing the right long-term priorities by
regularizing internal controls and budget processes and building administrative capacity at the
embassy and the consulates.

      Two initiatives critical to normalization have not been given sufficient attention. The
embassy and the Department are behind schedule in implementing a management plan to oversee

12
     Appendix 1 includes a chart of major construction projects.
                                               18
                                   SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

more than $5 billion in contracts. Without an on-the-ground presence to assume oversight from
the Defense Contract Management Agency, scheduled to depart Iraq at the end of FY 2013, and
a formal agreement with the Defense Contract Audit Agency, similarly scheduled to depart by
that time, the Department is at increased risk of waste, fraud, and mismanagement in its contract
management. Second, the embassy has just begun to build the cadre of local employees needed
to normalize operations in the long term. Although the embassy has undertaken recent efforts to
unclog the hiring and vetting pipeline of new employees, there are well over 100 vacant local
positions, an inexperienced local work force, and difficulties retaining staff.

Department of Defense Contracting Transition

        Mission management faces a daunting challenge in the transition from huge legacy DOD
contracts managed largely by military personnel, including the Logistics Civilian Augmentation
Program IV, to Department contracts to provide life support and other services by the end of
December 2013. Currently, dedicated acquisition professionals from the Defense Contract
Management Agency and Defense Contract Audit Agency monitor these contracts. The
Department has not taken steps to identify and recruit an adequate number of qualified personnel
to perform these functions when the new contracts come into force. Besides exposing the
Department to waste, fraud, and abuse, lax oversight of these contracts (b) (5)



        The Operations and Maintenance Support Services contract, awarded to Pacific
Architects and Engineers at an estimated cost of $500 million over 5 years, will provide facility
and vehicle maintenance, fuel distribution, minor construction, and janitorial services. The
transition to Operations and Maintenance Support Services began in February 2013 at the
embassy compound, and transitions at other Baghdad sites and Consulate General Basrah is
expected by October 1, 2013. A 2012 OIG audit (AUD-MERO-12-43) of Embassy Baghdad’s
previous operations and maintenance contract with Pacific Architects and Engineers determined
that the contracting officer’s representative approved invoices resulting in at least $2.7 million in
payments for costs not authorized and for goods not provided.

        The Baghdad Life Support Services contract, with an award expected in May 2013,
includes bulk fuel acquisition, food services, mail, firefighting, waste management, badging,
airfield support, and transportation estimated at $600 million over 5 years. Under the Medical
Support Services Iraq contract awarded in May 2011, Comprehensive Health Services Middle
East provides health services for mission staff at 14 medical facilities in Iraq. Oversight of the
contract, estimated near $300 million over 5 years, is inadequate, with only one medical program
manager/contracting officer’s representative responsible for all 14 locations.

        In February 2013, the embassy submitted a contract management transition plan to the
Department, identifying 38 permanent U.S. direct-hire positions, including 15 new positions,
required for contract oversight. The Department finalized the plan during the inspection,
although the transition has been expected since the December 2011 departure of U.S. combat
elements. The Department’s assignments cycle for summer 2013 positions had largely concluded
by the time the plan was released. To reduce the mission’s footprint, support costs, and risk to
personnel, the embassy proposes locating 6 of the 15 new positions outside of Iraq in a regional
                                                19
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

contract management office. All contracting officer’s representatives and government technical
monitors for the contracts must be Level III qualified, according to Procurement Information
Bulletin No. 2012-15, which will restrict the number of qualified personnel available to fill the
positions. Without urgent Department action to create the new positions and recruit and train
personnel, the embassy will not have the staff required for adequate oversight during the summer
2013 transition phase.

Recommendation 6: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
Administration, should implement Embassy Baghdad’s contract management transition plan
fully by establishing new positions and recruiting and training qualified personnel to oversee the
full range of Department contracts at the mission. (Action: NEA, in coordination with A)

Locally Employed Staff: Recruitment, Retention, and Vetting

        Embassy Baghdad’s local staff is small and relatively inexperienced. As of February
2013, the mission had authorization for 469 locally employed staff positions. At the time of the
inspection, 282 Iraqi employees were on board, and 187 positions were unfilled. Collaboration
during the hiring process between the security and human resources offices appears to be good,
but recruiting and retaining qualified Iraqi employees is an ongoing challenge for several
reasons.

        In Baghdad, because officers rarely venture beyond the international zone, they lack first-
hand knowledge of local conditions and the best places to recruit potential candidates. The Iraq
support unit in Amman, which provides offshore human resources support for the mission, has
responsibility for recruiting for the consulates. Consequently, recruitment efforts are limited to
the Internet and local newspapers, yielding fewer qualified candidates than would be the case in
a more permissive environment. The human resources unit does not take advantage of potentially
useful recruitment resources, such as public affairs or other section contacts and outreach events.

Recommendation 7: Embassy Baghdad should use public affairs and other section events and
contacts to broaden their recruitment efforts. (Action: Embassy Baghdad)

        Supervisors often unwittingly limit the number of applicants for a job by requiring
college degrees or several years of professional experience for relatively junior positions. This
practice disqualifies applicants who might otherwise be suitable and could be trained on the job.

       Informal Recommendation 3: Embassy Baghdad should verify that educational and
       work experience requirements in each job vacancy announcement are matched to the job
       requirements.

        Approved by the counterintelligence working group, the vetting process for both new and
existing Iraqi employees is strict—with an overall rejection rate that varies by location but has
averaged 47 percent in Baghdad in the last 6 months. The embassy completes the vetting of the
vast majority of its cases within 30 to 45 days, well below the 90-day worldwide standard.
Misleading application packages can prolong vetting time. When current employees are
recertified, changes in their lives sometimes affect their suitability for continued employment.
The vetting unit’s interviewing, database access, and records researching skills have improved
                                                 20
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

dramatically in the last year, and the unit is now able to identify vulnerabilities that were not
evident when an employee was first hired. The embassy has dismissed multiple local staff
members based on negative information developed during the recertification process, such as the
marriage of a family member to a person with terrorist connections—information the local staff
member had concealed in the vetting documentation. The high failure rate contributes, in part, to
the mission’s inability to reach its local staff hiring goals, bedevils managers desperate to fill
vacancies or retain experienced staff, and results in even longer delays while the position is re-
advertised or the second-best candidate is vetted.

         In an effort to increase application acceptance at initial intake, the security office recently
loaned a contractor to the human resources office specifically to help job seekers prepare their
application packages. She has had some success explaining and smoothing the application
process, which, in turn, has reduced the amount of time between the actual job offer and
initiation of the vetting process. The human resources office hopes to renew her contract when it
expires later in the year. A dedicated employee with strong interpersonal skills and cultural
sensitivity, who guides both new candidates and existing employees through the application or
recertification process, may break through some of the cultural and gender barriers, result in
fewer returned applications, and increase the number of successful candidates.

Recommendation 8: Embassy Baghdad should assign an employee to the human resources unit
to brief current and prospective employees on the vetting process and assist with document
completion. (Action: Embassy Baghdad)

Third Country Nationals and Training

         The embassy employs 56 third country national employees at a cost of about $10 million
annually. As noted in the Foreign Affairs Manual, 3 FAM 7271.4, third country nationals are
intended to serve as a temporary substitute for host country employees, when conditions do not
permit the training of local employees. Third country nationals provide expertise essential in
sections throughout the mission. Their lack of Arabic limits their effectiveness in dealing with
the public and Iraqi Government officials, however. American supervisors have been reluctant to
insist that third country national staff train Iraqi locally employed staff. In some sections, Iraqi
staff have been marginalized by the third country national staff and not provided sufficient on-
the-job training. The mission has prepared a locally employed staff training policy. One
component provides for on-the-job training but makes no mention of third country national
training of Iraqi staff.

Recommendation 9: Embassy Baghdad should revise the mission’s training policy to require
third country national employees to provide on-the-job training to Iraqi staff. (Action: Embassy
Baghdad)

Training Plans for Local Staff

        The mission does not have a training plan for Iraqi staff. Although the current training
policy outlines various training opportunities available to employees, absent a plan there is no
assurance that training will be scheduled or employees will be allowed time off to attend
training. Supervisors on 1-year tours already are reluctant to encourage training that is likely to
                                                 21
                            SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

result in their most competent third country nationals being replaced by less trained and less
experienced Iraqi employees. Where Iraqi members are being trained on the job, the training is
often at a low level or focused on clerical duties.

Recommendation 10: Embassy Baghdad should require all supervisors to prepare and
implement training plans for Iraqi staff. (Action: Embassy Baghdad)

The Iraq Service Recognition Package

        The Department developed the Iraq Service Recognition Package in 2005 in response to
the need to staff the embassy with volunteers in what was then a combat zone. The package
offers a range of special pay and career incentives to encourage Foreign Service employees to
bid on Iraq positions. Last year, the Department filled about 92 percent of Iraq positions with
volunteers. The Department is in the process of reducing selected employee benefits to reflect
improvements in security and living conditions. This review process is a necessary part of
normalization, similar to what occurs at other missions, but it also carries a risk that benefits
reductions may affect recruitment adversely. During the inspection, the Department lowered the
hardship differential and danger pay allowances for Iraq after a review of the mission’s
allowance reports. Although allowances and benefits may be adjusted at any time, mid-tour
reductions can appear arbitrary to employees, particularly when combined with changes such as
the reinstatement of the aggregate salary pay cap and the biweekly pay cap made outside the
annual package review process.13 The Department expects in coming months to offer service
recognition package benefits to other missions, such as Libya and Yemen, which could be more
attractive than the package for Iraq. Given the small number of bidders willing to serve tours at
unaccompanied missions, the annual review process and continued communication with
employees affected by these changes are key to maintaining the success of recruiting efforts.

Normalizing the Budget Process

        To a large extent, the Department funds Mission Iraq from special appropriations such as
the Overseas Contingency Operations account. Funding for many operating accounts still resides
with Department bureaus rather than with the mission. For example, the embassy received $121
million in FY 2012 allotments, less than 10 percent of all-source mission funding. Dispersal of
funding among several Department bureaus complicates financial management operations in
other ways. Every quarter the embassy must contact 16 different offices within the embassy and
at regional centers to review the status of about $100 million in unliquidated obligations from
prior year accounts, many of which pertain to grants programs or DOD interagency
procurements that can take years to close out. Washington bureaus such as the Bureau of
International Narcotics and Law Enforcement Affairs (INL), the Bureau of Democracy, Human
Rights, and Labor, and the Bureau of Near Eastern Affairs hold about $1.2 billion in foreign
assistance pipeline funds.


13
  Baghdad’s danger pay decreased from 35 percent to 30 percent, and the hardship differential decreased from 35
percent to 25 percent. Erbil’s danger pay and hardship differential both declined from 35 percent to 25 percent.
Basrah’s danger pay and hardship differential both declined from 35 percent to 30 percent.

                                            22
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

International Cooperative Administrative Support Services Implementation

         In FY 2014, Embassy Baghdad expects to implement the ICASS cost sharing system for
the entire mission. ICASS will require other agencies to cover their share of the mission’s
operating costs. The first phase of cost sharing began in FY 2011 and will culminate in FY 2014
with the extension of ICASS to all agencies and locations in Iraq. Implementation of ICASS will
result in clearer identification of operating costs and provide an incentive for agencies to
consider costs in their staffing decisions. The process will be labor intensive and may require
decisions in Washington about novel problems such as how to characterize several million
square feet of office space in BDSC and Consulate General Basrah and whether to apply cost
sharing to the Bureau of Diplomatic Security programs unique to this environment. The mission
has established an ICASS council and working group, which take a keen interest in ICASS
transition planning. The mission does not know the total per capita ICASS charges for FY 2014
yet, but they likely will be about $350,000 per person.

        The ICASS transition requires the mission to establish new processes, such as an agreed
methodology for setting each agency’s headcount, charging short- and long-term temporary duty
visitors, and developing charging mechanisms for institutional contractors not customarily
captured in ICASS workload counts.

Normalizing the Motor Vehicle Fleet Management

         Embassy Baghdad operates by far the largest fleet of motor vehicles in the Department, a
total of 4,500 vehicles, of which about 1,400 belong to the Department with an acquisition value
of $155.8 million. In 2012, the embassy launched a drive to halve the number of motor vehicles
under chief of mission authority. The 2009 inspection of Embassy Baghdad and subsequent
compliance followup review found that the embassy had not established a fleet management plan
to manage its long-term requirements rationally and recommended that it do so. Although
mission efforts to reduce fleet numbers are commendable, the embassy never established a long-
term plan for vehicle needs as required by 14 FAM 434.3. As the Department incorporates
Baghdad’s operating costs into its regular budgets in coming years, having an accurate baseline
of the embassy’s long-term vehicle needs is essential.

Recommendation 11: Embassy Baghdad, in coordination with the Bureau of Administration
and the Bureau of Diplomatic Security, should conduct a countrywide fleet review to define how
many vehicles Mission Iraq actually needs. (Action: Embassy Baghdad, in coordination with A
and DS)

Aviation Services

        With the departure of U.S. combat troops in 2011, the Department assumed responsibility
for passenger and cargo aviation services formerly performed by the DOD. Based in Amman,
Jordan, Embassy Air carried 19,306 passengers to destinations around Iraq during a recent 6-
month period. Embassy Air is the mission’s most secure lifeline to the outside world and the
only means of medical evacuation countrywide. The combined cost of Afghanistan-Iraq air
operations stands at $128.2 million this year. The Department has convened an aviation glide
path working group to find ways to reduce costly aviation service. The embassy reviews
                                                23
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

commercial airline options and aviation safety issues regularly and expects to reduce contract
aviation services over the next year as commercial options become available.

Medical Services

        The Department is rapidly reducing the scope of its contracted medical services,
estimated at $85 million for FY 2013, as activities at OSC-I locations around the country close
by the end of the year. The embassy operates 11 hospitals and clinics throughout the country
under contract with Comprehensive Health Services Middle East. Operations include four
diplomatic field hospitals geared to trauma and mass casualty stabilization and clinics that
deliver primary care, evacuation stabilization, and laboratory services. At the embassy and in
Erbil, the mission has already brought in Foreign Service personnel to staff medical units in
anticipation of a normalized medical services environment with a reduced contractor presence.
Air ambulance services from neighboring Amman now serve all Iraq and represent a reasonable
option for future medical evacuation needs.

Offshore Support

       Embassy Baghdad makes extensive use of offshore administrative support. These
services function effectively and reduce the number of employees on the ground in Iraq. The
Bureau of Near Eastern Affairs’ Orientation and In-Processing Program handles all aspects of in-
processing for new employees, eligible family members, and employees assigned on long-term
temporary duty trips. The Iraq support unit in Amman, Jordan, processes more than 6,000 travel
authorizations annually and operates the back-office accounting for Embassy Air. Amman also
manages Mission Iraq’s awards program, provides all human resource services to the three
consulates, and classifies an increasing number of the mission’s locally employed staff positions.
The Global Financial Services offices in Bangkok and Charleston manually process the entire
mission’s payroll submissions every 2 weeks.

        There are three drawbacks to offshore support. The first is complexity: as many as 6
offices process transactions for payroll and travel services that normally would be done within
the embassy, creating confusion among customers and service providers. Second, the absence of
on-the-ground personnel for payroll and travel results in reduced customer service. Third,
offshore support for some functions requires manual data re-entry into payroll and travel
systems, which can create data entry errors. Notwithstanding these drawbacks, offshore offices
perform well; transferring services performed offshore to Iraq is neither desirable nor feasible at
this time.

Host Country Administrative Issues

         The embassy depends on contractors for food, fuel, and essential supplies. It engages on a
daily basis with Government of Iraq offices to work through complex customs approval
procedures for thousands of separate shipments per year and countrywide logistics activities.
One-year tours, a dearth of local employees at consulates and offsite locations, and security
restrictions complicate resolution of logistics problems that would be handled directly through
face-to-face relationships elsewhere. Only one of seven local employees in the shipping unit has
more than a year’s experience on the job. The establishment of procedures for customs clearance,
                                                  24
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

visas, vehicle registration, and mail shipments required mission leaders’ nearly constant
intercession with the highest levels of the Government of Iraq when the new government set up
ministries and offices responsible for such functions. Improvements to customs clearance and
associated logistics issues are now on the horizon, but processes require careful attention in view
of their mission-critical importance to safety and operational continuity.

Availability of Local Goods and Services

        The mission lacks local suppliers for many basic goods and services. Embassy Baghdad’s
2014 Mission Resource Request highlights the importance of local procurement to lower costs,
minimize disruptions in supply, boost the local economy, and show Iraqis that the embassy is
serious about normalizing its presence. The security situation and entry restrictions in the
international zone of Baghdad and the area surrounding the consulate general in Basrah limit
contact with local vendors and make it difficult for Iraqi workers and firms to access mission
sites.

Advance Acquisition Planning

        The mission lacks an advance acquisition plan to define procurement priorities. With
adequate supplemental funding available in past years, mission offices have not planned ahead.
In addition, the pace of change has made identification of long-term needs difficult. Department
guidelines in 14 FAH-2 H-320 require advance acquisition plans for the effective use of public
funds and for efficient scheduling of the acquisition workload. Unplanned procurements result in
limited competition, hastily prepared statements of work that do not fulfill requirements, and
waste of government funds.

Recommendation 12: Embassy Baghdad should prepare an annual advance acquisition plan.
(Action: Embassy Baghdad)

Logistics Operations

        Procurement, customs, and shipping logistics are unusually complex. The procurement
workload at the consulates has taxed these operations’ limited capabilities. Coordination among
entities responsible for procurement and logistics is weak, and the mission is not making full use
of offshore procurement resources to ease the workload. For example, Consulate General Erbil
could not execute a $2 million housing rehabilitation program in FY 2012 because of a lack of
qualified personnel and advanced acquisition planning. Consulate General Basrah is at the end of
a long and tenuous supply chain that leads to frequent shipping delays and costly storage
charges. The overall procurement workload for the mission is likely to expand further after the
departure of the DOD’s logistics contractor later this year and already includes a large number of
contracts greater than $250,000. The embassy relies on procurement support from Embassy
Amman’s Iraq support unit for about a third of small-scale procurement actions. The consulates
depend on Baghdad for support in other areas. Neither the Iraq support unit staff in Amman nor
personnel from the consulates have met in recent years with embassy staff to share information
and standardize business processes.


                                       25
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 4: Embassy Baghdad should conduct a joint logistics
       workshop to improve communication among the consulates and offshore locations,
       coordinate advance acquisition planning, and train local staff on mission-specific
       procurement and logistics procedures.

Post Language Program

        The Department does not routinely assign officers to a year of Arabic training for a 1-
year Iraq tour, but the embassy nevertheless recruited qualified officers for the majority of its
2012-13 language designated positions in the political, economic, consular, and public
diplomacy sections. Embassy Baghdad has, on paper, a well-organized post language program
with classes at several levels. In practice, the program was out of commission at the time of the
inspection as a result of the sole instructor’s extended absences. The embassy sought to hire a
second instructor earlier but could not identify an acceptable candidate. Many employees were
unable to attend classes for nearly 6 months—half the tour for most personnel. The embassy’s
language training priorities were not consistent with 13 FAH-1 H-251, which assigns the highest
priority to personnel occupying language designated positions. The embassy issued an amended
language instruction policy prior to the OIG team’s departure. At the team’s suggestion, human
resources and general services are exploring the possibility of using a contract linguist to assist
with instruction until the embassy can hire additional instructors.




                                       26
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Normalization: Program and Policy Implementation
Political and Economic Policy Coordination

        The political, political-military, and economic sections support the front office’s efforts
to manage relations with Iraqi authorities. Reporting from all three sections, but especially the
political section, is comprehensive, timely, and of high quality. The three sections are in various
stages of restructuring. The political section downsized in 2012. The economic section has
developed a plan that will produce a lean, focused section in mid-2014. The political-military
section has completed its downsizing but has yet to articulate a structure to align its mission with
its reduced staffing.

        The economic and political sections have grade structures based on past, higher staffing
levels, and some of the positions are now overgraded. In the political section, five positions are
actually filled by lower-graded officers. The economic section has three positions that were filled
by stretch assignments, but its medium-term plan already revises the grade structure and
eliminates a senior position in 2014. The rightsizing exercise begun on March 1 is reviewing
section staffing to align grades with section responsibilities.

       Communications are uneven within each section and weak among the three sections.
Several staff members expressed a desire for more communication on discussions at country
team and senior staff meetings. The OIG team counseled managers on ways to improve
communication flow.

Political Section

         The political section includes three “pillars.” The internal affairs unit does an outstanding
job covering Iraqi political developments. Reporting is extensive, well-sourced, and analytical.
The location of Iraq’s Council of Representatives (the parliament) in the international zone
facilitates access to council members. The unit is also fortunate to have all four of its language
designated positions filled with Arabic speakers at the required level or higher. The external unit
and the democracy and human rights pillars are smaller and face more security constraints in
carrying out their work with contacts located outside the international zone, but they are carrying
out their duties effectively. The survey phase of the inspection surfaced questions about the
embassy’s engagement on women’s issues. The inspection found, in fact, robust engagement
with Iraqi women on a range of issues, including specific human rights concerns. The embassy
released a report on its strategy on women’s issues during the inspection.

Political-Military Section

        The embassy has a stand-alone political-military section that reports to the DCM. The
volume of work and the level of engagement with an evolving OSC-I warrant an independent
political-military section for the foreseeable future. The section has struggled over several years
to manage relations with the much larger but rapidly changing U.S. military presence. The
section’s officers have carved out meaningful and substantive roles with the military. However,
OSC-I’s staff has not always understood their role in a civilian-led model of diplomatic
                                         27
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

engagement. Officers without prior political-military experience would benefit from political-
military affairs training prior to assignment to Iraq.

       Informal Recommendation 5: Embassy Baghdad should require all officers assigned to
       the political-military section to attend the Political-Military Affairs course PP505 at the
       Foreign Service Institute unless they have significant prior political-military affairs
       experience.

        The political-military section’s two-unit structure—strategic planning and programs and
operations—is a holdover from the time when military operations were ongoing and it was
interacting regularly with U.S. Forces Iraq. The section’s current size calls for a different
structure. One unit focused on the security assistance program (Foreign Military Financing,
International Military Education and Training, and Foreign Military Sales) and a second unit
managing policy issues would be one option.

       Informal Recommendation 6: Embassy Baghdad should reorganize the political-
       military section to reflect current staffing and roles.

Economic Section

        The economic section acts more like two separate sections, one built around the energy
team and one built around the growth team. Communications within the section is inadequate, a
problem exacerbated by the physical separation of the teams in two office suites. The energy
team is located with and largely managed by the economic minister counselor even though it
reports to the economic counselor. The team provides Washington with highly valued reporting
on Iraq’s oil sector. Morale and cohesion are high.

        The growth team is located with and supervised by the economic counselor. Many
officers in the growth team feel isolated and distant from the section’s top leadership. The glide
path staff reductions and a perceived lack of transparency have aggravated tensions within the
growth team and weakened employee morale. Section leadership is aware of these problems and
has developed a plan to locate the entire section in a single office space.

        A contract employee, funded by the Bureau of International Security and
Nonproliferation, is located in the economic section and manages two high-value
nonproliferation-related programs: the Chemical Security Engagement Program and the Global
Biosecurity Engagement Program. The position’s assignment to the economic section is a legacy
of the program’s origin as the Iraqi Scientist Engagement Program and a once-large science and
technology section. The nonproliferation focus of these programs suggests they would be better
placed within the political-military section, where the employee could also assume responsibility
for managing the International Security and Nonproliferation Affairs Bureau’s Export Control
and Related Border Security Program assistance to Iraq, an $800,000 annual program now
managed by an officer in the political-military section.

       Informal Recommendation 7: Embassy Baghdad should reassign the contract employee
       funded by the Bureau of International Security and Nonproliferation to the political-
       military section.
                                              28
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Export Promotion

         Although exempted from the National Export Initiative, Embassy Baghdad is committed
to expand commercial opportunities for U.S. firms. The FY 2014 Mission Resource Request
includes as objectives: supporting U.S. companies working in the energy sector, and providing
the full range of commercial services, especially in support of U.S. companies bidding on
government contracts. Collaboration on export promotion among the Department, Foreign
Commercial Service, Foreign Agriculture Service, U.S. Agency for International Development
(USAID), Treasury, and the Department of Transportation has been effective. The embassy has
recorded a number of commercial successes. Iraqi Airlines purchased its first Boeing 777 aircraft
after an all-hands effort that included the Ambassador’s personal engagement with the prime
minister and the company’s top leadership. A recent trade mission to Basrah drew 15 non-oil-
related U.S. exporters. The Iraqi Kurdistan region’s more open economy has allowed Consulate
General Erbil to develop a number of export opportunities, including a major sale of U.S.
vehicles to the regional government.

Leahy Vetting

        In 2012, the mission submitted 288 cases incorporating 2,745 individuals for Leahy
vetting. The office management specialist in the political-military affairs section coordinates the
missionwide vetting function. She has developed standard operating procedures and a tracking
system. She conducts mission-level checks before submission to Washington in accordance with
Internationals Vetting and Security Tracking procedures. She has carried out four training
sessions for agencies and sections submitting training candidates. Training materials are well-
designed and include examples of proper submissions to guide nominating agencies. In addition,
the political-military section has developed a PowerPoint report for the OSC-I commander’s
daily briefing to track vetting progress.

Money Laundering and Financing of Terrorism

        In 2012, the Middle East and North Africa Financial Action Task Force completed an
evaluation of Iraq’s financial oversight regime. The evaluation found extensive noncompliance
with international standards to protect against money laundering and terrorist financing. Advisors
from the Departments of Justice and Treasury had been providing technical assistance in these
areas, but both advisory positions were eliminated with the reduction of INL funding and
staffing. Divergent views among embassy staff about the problem and how to address it have
impeded constructive discussion and reporting. During the inspection, the embassy reviewed and
then took steps to strengthen its anti-money laundering/counterterrorism finance working group.

Recommendation 13: Embassy Baghdad should develop recommendations to Washington on
how to address money laundering and terrorist financing in Iraq. (Action: Embassy Baghdad)

Countering Violent Extremism

       The embassy has a number of programs that target terrorism and violent extremism.
Almost all are at the “hard power” end of the spectrum. They include the Bureau of Diplomatic
Security’s Anti-Terrorism Assistance program, U.S. military Train and Assist activities, and INL
                                                29
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

programs to strengthen the police and judiciary. The security situation limits public affairs efforts
aimed at countering violent extremism.

        Until now, the embassy has not had a formal mechanism for bringing together the various
programs aimed at countering terrorism and violent extremism to make the best possible use of
available resources. During the inspection, the embassy started a working group dedicated to
countering violent extremism. All appropriate sections and agencies participated in the group’s
first meeting, and the working group agreed on action items for followup.

Law Enforcement

       The embassy’s law enforcement presence is shrinking, primarily as a result of significant
reductions in the number of Department of Justice and INL trainers. The Department of
Homeland Security no longer has a permanent presence in Iraq. By April 2013, law enforcement
representation will consist of the standard embassy entities that manage relationships with host
country law enforcement authorities, the courts, and corrections system, and support
Department-funded training.

         Cooperation among the embassy’s various law enforcement components has improved as
their staff numbers have declined and managers are less absorbed in internal administration. A
standing law enforcement working group began to operate in 2012, chaired by the DCM or the
regional security officer. Participants credit the working group with ending uncoordinated
meetings by different agencies with the same Iraqi officials, and curbing duplicative training
offers.

Public Affairs

        The public affairs section supports the front office and mission staff with daily Arabic
and English-language media summaries, manages the largest International Visitor Leadership
Program in the world with 149 participants in FY 2012, and is increasing its social media
presence to compensate for the constraints on public outreach. The section’s biggest challenge
has been adjusting to the radical downsizing of staff following the December 2011 departure of a
large U.S. Armed Forces media unit, as well as a sharp decrease in the U.S. and other Western
media community. The section eliminated five U.S. direct-hire positions in the glide path
exercise. Section management hired four new Iraqi staff in the last 3 months. A Web manager
will start work shortly. An Iraqi grantee supports the nine American Corners by arranging
workshops and training. Iraqi cultural advisors monitor and report back to the public affairs
section on the grantee’s performance. The section’s size, configuration, and span of control
appear to be appropriate.

        Two recent public opinion polls highlight the embassy’s public diplomacy challenges and
suggest appropriate programming choices. A February 2011 poll by the Bureau of Intelligence
and Research indicated that only 20 percent of Iraqis had a favorable view of both the United
States and its government. A 2012 Zogby Research Services poll showed even worse attitudes,
with only 13 percent of Iraqis voicing a favorable view of the United States. To counter these
widespread unfavorable attitudes, the public diplomacy section emphasizes cultural and
educational products rather than official policy pronouncements from the Ambassador. For
                                                 30
                           SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

example, the Department poll reveals that high percentages of Iraqis, up to 78 percent, have very
favorable views of American science, technology, and education. Wisely, the section invited an
Iraqi-American speaker to discuss renewable energy. The section also nominated an impressive
slate of International Visitor participants for programs in higher education, public health, and the
role of women in science, engineering, and technology.

        The section also seeks to make a positive impact on a wide range of Iraqis through the
Access Microscholarship English language program. The program provides English courses for
about 1,000 underprivileged youth between the ages of 13 and 20. It emphasizes minority
inclusion, mixed gender classrooms, and geographical diversity. A grantee manages the $1.5
million program, and Iraqi cultural advisors and an American specialist monitor the
courses. Other grants fund English courses for 600 embassy contacts and provide U.S. training
for 50 Iraqi English teachers. The programs are an excellent vehicle for outreach to ethnically
diverse Iraqis, who can, in turn, access Western information sources without intermediaries.

Cultural Programs

        Cultural officers conduct frequent educational, civil society, and arts programs outside
the international zone. To comply with security requirements and minimize the risk of
cancellations, programs are smaller, limit participation to two Americans, and focus on activities
taking less than 2 hours. These scaled-down events limit opportunities for contact building and
recruiting for exchange program candidates.

Social Media

        Although less than 10 percent Internet penetration, limited bandwidth, expensive Internet
fees, and irregular power supplies pose challenges, public affairs has identified digital outreach
as one of its emerging tools for reaching target audiences. Target audiences increasingly use
Facebook and other social networking sites; surveys in two large English-language university
classes showed that about 70 percent of students have a Facebook account. The embassy’s posts
on U.S. humanitarian assistance in Syria generated almost 400 “likes,” 70 comments, and 6 page
shares, which demonstrates the effectiveness of this tool. The embassy now has 47,000 Facebook
and 1,850 Twitter followers.

American Corners

        Nine American Corners, all recently equipped with Internet access, have become a
promising program platform, although the performance of their Iraqi directors is not consistent.
Iraqi cultural advisors’ identification of program inadequacies resulted in the recent closing of
three Corners. The Bureau of International Information Programs offers Arabic-language paper
shows14 that address embassy priorities. These programs require little or no American officer
presence and can, therefore, be deployed easily outside the international zone. The American
Corners are good locations for these exhibits, but the section has not taken advantage of available


14
  Paper shows are typically 10 to 20 low-cost, poster-sized panels on U.S. society and culture for mounting and
display in American Corners or consulates.
                                            31
                                SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

paper shows to date. Neglecting this outreach opportunity means fewer Iraqis are exposed to
American ideas and values.

         Informal Recommendation 8: Embassy Baghdad should make more use of programs,
         such as paper shows, that do not require American officer participation at the American
         Corners.

Grants

         The Office of the Procurement Executive, per Grants Policy Directive 21, requires the
public affairs section to enter all grants into the online Grants Database Management System, but
at the time of the inspection it had uploaded only 6 of 67 FY 2012 grants. Entering so few grants
in the grants database falls unacceptably short of Federal law requiring transparency and
accountability to help prevent wasteful spending.

Recommendation 14: Embassy Baghdad should post all of its FY 2012 grants, as well as
current grants, into the Grants Database Management System. (Action: Embassy Baghdad)

        The Office of the Procurement Executive requires competition in awarding grants in
excess of $10,000 or a waiver for each grant issued without competition. The section rarely
posted grant announcements in FY 2012. Public affairs sections are permitted to justify their
grants competition policies on a yearly basis by posting an annual program statement in lieu of
individual waivers, but the embassy has not done so.

Recommendation 15: Embassy Baghdad should issue an annual program statement for public
diplomacy grants and post it on www.grants.gov. (Action: Embassy Baghdad)

Iraqi Cultural Advisors

        Embassy Baghdad’s Iraqi cultural advisor program has proven valuable for collecting
local insights, providing spot reporting, and supporting cultural outreach in a restrictive
environment. Advisors have also helped recruit exchange program participants and monitored
Department-funded assistance projects. There are, however, significant weaknesses in the
program’s management. The impending contract extension will allow the embassy to resolve any
program deficiencies.

        The 31 Iraqi cultural advisors were hired originally under several contracts to support
provincial reconstruction teams. When the provincial reconstruction teams ceased operations in
2011, the mission assumed direction of the advisors and brought them under a single contract.
Eleven advisors operate in the Baghdad area; another 20 are based in the provinces. They report
to and receive direction from officers in eight different sections and agencies, plus the consulates
general in Basrah and Erbil. The political section is leading a process to establish better
coordination and oversight of the program. There is now a consolidated list of Iraqi cultural
advisors, and advisors are made available to all sections even if they are managed primarily by
another. There are plans to hold annual advisor training sessions.


                                        32
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

        The cost of the cultural advisor program will likely reach $2 million for the current
contract year (an average cost of $70,000 per year per advisor). The embassy has already served
notice to extend the contract to May 2014. Although a U.S. direct-hire employee manages each
Iraqi cultural advisor and approves timesheets and expense claims, these individuals are neither
contracting officer’s representatives nor government technical monitors. Managers have no way
to confirm hours worked. The contracting officer’s representative in the general services office
reviews payments and questions expense claims as appropriate. Advisors do not generally have
proper scopes of work, and there is no mechanism for assessing the output and value of each
advisor to determine overall contract performance.

Recommendation 16: Embassy Baghdad should implement a plan to manage the Iraqi cultural
advisors contract consistent with Federal Acquisition Regulations and good management
practices, to include a qualified government technical monitor to approve time sheets and
expenses; regular face-to-face meetings between the advisors and their managers; and annual
performance evaluations. (Action: Embassy Baghdad)

Recommendation 17: Embassy Baghdad should assess the number of advisors needed to
support mission requirements. (Action: Embassy Baghdad)

Consular Section

        The consular section does good work in a difficult environment, paying appropriate
attention to internal controls, Visas Viper reporting, and visa processing requirements. There are,
however, processing inefficiencies and access control issues, some of them inherent in the
embassy’s security posture, that affect customer service. These inefficiencies were apparent
when consular management increased nonimmigrant visa appointments during the inspection,
and customers snapped up new interview slots, relieving pent up demand. The fraud prevention
program is nascent, and the first assistant regional security officer for investigations has only
recently arrived. The American citizens services staff is able to visit prisoners but cannot do
normal welfare and whereabouts or other outreach because of travel restrictions. The unit has
developed creative workarounds, such as telephone interviews and the use of intermediaries, to
gather information on parental abduction cases. The section chief established a consular corps
group soon after his arrival, and this initiative may pay dividends in the near future with multi-
embassy cooperation on fraud issues and operational challenges.

Consular Management

         The section’s effectiveness is hampered by a dearth of Arabic-language speakers, limited
cultural insight, and an insufficient number of useful local contacts, largely due to the limited
role the five Iraqi employees play in the overall operation. Fewer than half the consular
employees—both U.S. and non-U.S. direct hires—speak Arabic and only three of the Arabic-
speaking officers can conduct the full range of interviews unassisted. Iraqi locally employed
staff, all hired within the last 2 years, spend much of their time as interpreters, which limits the
time they spend developing functional expertise. Consular managers rely heavily on experienced
third country national staff, but this reliance has not provided the Iraqi staff with the skills they
need to assume responsibility for operations when the third country national program ends in
2015. Section leadership is now requiring third country national senior staff to devote more time
                                                   33
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

to train the Iraqi staff. None of the Iraqi staff members, however, have ever seen a normal
consular section in action. During the inspection, consular management organized an American
citizens services training course for all consular staff. In addition to increased focus on training
in Baghdad, Iraqi staff would benefit from orientation trips to observe and assist in a consular
section at a nearby embassy. The OIG team encouraged leadership to set up offsite visits; and
management promptly identified a trainee and a receiving post and was trying to secure funding.

       Informal Recommendation 9: Embassy Baghdad should make training of locally
       employed consular staff a priority, including online and hands-on training opportunities.

        All consular customers are required to use a shuttle service to access the embassy
compound. That service departs from a nearby U.S. Government compound after riders are
security screened. Including transit time, a second security check process, and document
prescreening at the consular section, the first applicants are not ready for interview until the
section has been open for more than an hour. The shuttle bus schedule is too limited to keep
customers flowing in and out of the compound efficiently.

       Informal Recommendation 10: Embassy Baghdad should increase the frequency of the
       consular shuttle service.

         The section is staffed to meet greater demand but can only do so if it streamlines
processing. Many applicants arrive ill prepared for their interviews, and the section’s intake
procedures are slow, which limits the number of cases that can be processed each day. Few Iraqis
have regular Internet access, which makes dissemination of consular information difficult.
Consular management has not focused on alternate methods of getting information to the public,
such as inserts in immigrant visa appointment packets, notices on the nonimmigrant visa
appointment site, mailers to travel agents, and media notices. It has not conducted desk audits of
its intake process to identify unnecessary steps or shortcuts.

       Informal Recommendation 11: Embassy Baghdad should identify choke points in
       consular processing and adopt strategies to ease them.

Nonimmigrant Visas

        A serious issue facing the consular section is the inability to process Kurdish visa
applications in a reasonable timeframe. This situation results from the lack of timely
Washington-based administrative processing and is discussed in the classified annex to this
report. Additional problems related to administrative processing for other types of visas are also
discussed in the classified annex.

        The section handles nonimmigrant visa referrals correctly, but delays in administrative
processing in Washington generate an unusual number of high-level requests for status checks
and constant pressure on consular officers from referring officers. The section developed a
process so that other embassy offices can access information about the status of referral cases
without contacting a consular officer.


                                        34
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Immigrant Visas

        Applications for the Iraqi special immigrant visa program make up approximately 65
percent of immigrant visa cases. The special immigrant visa program, designed for employees
and former employees of the U.S. Government in Iraq with at least 1 year of service, was
instituted by law in 2008 and will terminate at the end of FY 2013 unless Congress extends the
program. Embassy Baghdad, the Bureau of Consular Affairs, and the Bureau of Population,
Refugees and Migration, each of which handles a portion of the program, have not publicized the
imminent termination of the program because they expect the program to be extended. The
proposed legislation would extend the application deadline until the end of FY 2018 for
applicants who began their employment with the U.S. Government before October 1, 2012.
Announcement of the impending termination of the program to affected applicants will allow
those individuals who may have qualifying U.S. Government employment to make an informed
decision as to whether to apply before the program ends. The approximately 2,000 Iraqi special
immigrant visa cases in the Washington pipeline for administrative processing may not be
completed before the program’s termination.

Recommendation 18: Embassy Baghdad, in coordination with the Bureau of Consular Affairs
and the Bureau of Population, Refugees and Migration, should alert pending applicants about the
potential termination of the Iraqi special immigrant visa program on September 30, 2013.
(Action: Embassy Baghdad, in coordination with CA and PRM)

       The immigrant visa unit has been holding thousands of Iraqi passports for special
immigrant visa applicants and their immediate family members pending the results of
administrative processing. Consular sections worldwide are advised not to retain travel
documents for indefinite periods because those documents belong to the applicants, not to the
U.S. Government. These families cannot leave the country because the consular section has their
passports. In addition, if the embassy were to draw down or evacuate, the section would have to
destroy these travel documents. Some of these passports have been held for several years.

Recommendation 19: Embassy Baghdad should return the Iraqi passports of special immigrant
visa program applicants. (Action: Embassy Baghdad)

Consular Section Erbil

        The consular section at Consulate General Erbil is staffed by a sole consular officer, who
will be joined by two locally employed staff. The section is not yet open for visa or American
citizens services but is expected to open for service in 2013. The consular section chief in
Baghdad has been working with the consular officer in Erbil to prepare for the opening. The OIG
team understands that the Bureau of Consular Affairs plans to have the Erbil principal officer
review the consular officer’s visa adjudications. Because of the complexity of visa work in Erbil,
the fact that the principal officer will likely be the most frequent referring officer, and the
relative inexperience of the consul in Erbil, this is inadvisable. The Erbil consular officer would
benefit from having his decisions reviewed by an experienced consular officer familiar with visa
ineligibilities and the administrative processing requirement.


                                       35
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 20: The Bureau of Consular Affairs should authorize the Baghdad consular
section chief to review Erbil visa adjudications. (Action: CA)

        The embassy hired two locally employed staff for Erbil’s consular section—one FSN-07
visa assistant and one FSN-08 American citizens services assistant. The visa assistant has several
years of consular experience. The American citizens services assistant has previous U.S.
Government experience but not in consular work. In such a small section, both assistants will be
doing the same work and cross training in all functions until the workload grows enough to
separate the section into two units, at which time those positions would become supervisory.
Consular management in both Baghdad and Erbil acknowledge that it was ill conceived to
establish the two Erbil locally employed staff positions at different grades. In addition to this
structure not being appropriate for such a small staff, assigning the more experienced employee
to the lower graded position is also a poor decision.

Recommendation 21: Embassy Baghdad should classify both locally employed staff positions
at Consulate General Erbil as FSN-08 and cross train the two incumbents. (Action: Embassy
Baghdad)

The Office of Refugee and Internally Displaced Persons Affairs

        The Office of Refugee and Internally Displaced Persons Affairs facilitates voluntary
return and integration of refugees and internally displaced persons, engages Iraqi authorities to
observe international standards of humanitarian protection, and manages programs to help Iraqis
who face danger stemming from their association with the United States. The staff is well-led,
resourceful, and proactive in monitoring the disbursement of U.S. assistance—$260 million in
FY 2012—to 1.3 million displaced persons and several hundred thousand refugees. It also
manages a caseload of nearly 17,000 applicants for refugee resettlement and special immigrant
visas. On the Iraqi side, weak commitment, capacity, and internal coordination limit the
effectiveness of that assistance. The refugee office has done a good job communicating with
Iraqi officials and the United Nations High Commissioner for Refugees and facilitating high-
level engagement from Washington.

        The refugee admissions coordinator partners with the International Organization for
Migration (IOM), which operates a processing facility for refugee applicants. To minimize staff
and footprint, IOM in Amman provides initial documentation gathering, quality control, filing,
scheduling, and travel and placement support. Prescreening interviews take place in Baghdad. It
typically takes about 1 year from initial application to the prescreening interview. Following
name checks and lengthy administrative processing, teams from the U.S. Citizenship and
Immigration Services travel to Baghdad to interview applicants and adjudicate cases.

        There is some urgency to processing refugee cases because of the inherent risk to this
vulnerable group. The embassy has taken steps to speed up processing, including securing more
interview space, adding IOM caseworkers, and increasing the number of adjudicators. The
embassy expects to double the processing rate and eliminate the backlog of cases for
prescreening by the end of the year. Even so, at current application rates, the case load backlog
for final interviews and adjudication will remain at approximately 2 years, provided the number
of U.S. Citizenship and Immigration Services personnel remains at current levels.
                                                36
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

         The section’s staff is trying to shorten the process by identifying problem cases earlier in
the process. These steps may include collecting fingerprints and other biometrics earlier and
improving network connections to reduce data transmission problems. The OIG team encouraged
staff to pursue these initiatives.

        The section has four third country national positions to verify employment and threat
information for special immigrant visa applicants. They obtain information by email and phone
but do not interact with applicants in person. IOM in Amman performs a similar function for
Iraqi refugee applicants. High costs of maintaining third country national positions are not
justified when the functions can be performed offshore equally effectively. The OIG team
counseled section management on less expensive options, including hiring local staff to perform
these functions at other posts in the region or creating eligible family member positions at the
embassy to do this work until the special immigrant visa program concludes.




                                        37
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Foreign Assistance: Planning, Coordination, Monitoring
         As oil revenues increase, Iraq’s ability to fund its own requirements is improving.
Consequently, U.S. assistance to Iraq is declining. Funding levels in FY 2012 were at $1.3
billion, but the FY 2014 planning figure is $573 million, of which $502 million is for security
assistance. The 2013 closure of the Police Development Program represents the largest
programmatic and funding change. Current planning contemplates closure of the USAID mission
in FY 2015. Even at diminished levels, foreign assistance planning and oversight will require
substantial embassy resources for grants officer representatives and monitoring.

Planning and Organization

        Embassy Baghdad has done a good job in a difficult foreign assistance planning
environment. Until mid-2012, when the position was abolished, an assistant chief of mission for
assistance transition coordinated assistance and supervised nearly all embassy elements
overseeing assistance programs. Since then, responsibility for foreign assistance programs has
been dispersed, with the assistant chief of mission for rule of law adding the coordination role
and oversight of USAID to his duties. During the inspection, embassy leadership decided that the
USAID director would assume the foreign assistance planning and coordination role when the
assistant chief of mission for rule of law position is eliminated in mid-2013.

       The embassy has an effective assistance coordination group, which develops budget
proposals and determines the impact on staffing. The embassy convened the group as a
contingency but institutionalizing it would encourage coherent planning across sections and
agencies, help prevent duplicative activities, and provide continuity through the drawdown of the
USAID mission.

       Informal Recommendation 12: Embassy Baghdad should establish the mission
       assistance coordination group as a standing body with a regular meeting schedule and
       terms of reference.

Grants Officer Representatives

        Although Washington manages most Department-funded civilian assistance programs in
Iraq, several embassy staff members serve as grants officer representatives for all grants of more
than $100,000. As of June 30, 2013, the Office of the Procurement Executive will require all
grants officer representatives be certified. The mission’s grants officer representatives have taken
appropriate training, but none is registered as certified in the Office of the Procurement
Executive database.

       Informal Recommendation 13: Embassy Baghdad should require all employees serving
       as grants officer representatives to take grants training and become certified.




                                       38
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Monitoring

        Department regulations require monitoring of assistance awards.15 The embassy’s
monitoring responsibilities vary from providing grants officer representatives to acting as a
liaison with implementing organizations to supporting visits by Washington-based staff. Security
concerns and the associated costs make it rare for a direct-hire employee to undertake a site visit
outside of Baghdad or Erbil. Travel outside Baghdad’s international zone requires advance
planning and an accompanying security detail. Monitoring demand may ease over time if
funding levels decrease, but even a small grant can impose significant demands on embassy and
consulate resources.

       No process exists to align required monitoring with the embassy’s capacity. The embassy
does not use its opportunities to comment on proposed assistance awards to explain the limited
support it can provide to monitoring; therefore, program offices do not consider those factors to
produce achievable monitoring plans.

        Informal Recommendation 14: Embassy Baghdad should inform Department program
        offices what support it is able to provide to monitor assistance awards under
        consideration, including staff time, travel, and visit support.

Cost Sharing

        Since 2009, it has been Department policy to seek a minimum 50 percent participation by
the Government of Iraq for programs that directly benefit or involve the central government or
that are in its direct interests.16 Although some exceptions apply to most Department-funded
programs, the U.S. Government is required to seek Government of Iraq financial participation
even in excepted cases.

        USAID has an effective mechanism for tracking Iraqi contributions to its programs, but
neither the embassy nor Department program bureaus have applied the guidelines consistently.
Most employees are aware of U.S. interest in seeking Iraqi contributions and cite anecdotal
examples of the Iraqi government funding travel and making land and facilities available for
training. However, there is no mechanism to record decisions on whether an Iraqi contribution is
required. Nor do the embassy or Department program offices keep records on Iraqi contributions.
The team reviewed 29 project files in several program areas and identified only three that
included a cost sharing provision. Fulfillment of the guidelines would generate additional
funding, test the Iraqi Government’s commitment to cooperative programs, and build its capacity
to plan, budget, and implement activities.

Recommendation 22: The Office of U.S. Foreign Assistance Resources should require that all
implementing mechanisms for assistance to Iraq indicate in operational plans how they will
comply with the 2009 guidelines on Government of Iraq financial participation. (Action: F)

15
 Monitoring Assistance Awards, Grants Policy Directive Number 42, September 2, 2010.
16
  Guidelines for Government of Iraq Financial Participation in U.S. Government-Funded Civilian Foreign
Assistance Programs and Projects, Department of State, April 9, 2009

                                          39
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

The Ambassador’s Fund

        Established in FY 2012, the Ambassador’s Fund awards grants that promote
reconciliation and stability, improve access to local government, enhance social stability, build
civil society capacity, and enhance economic growth. The $10 million appropriated for the fund
was more than the $5 million the Department requested.

        The fund solicits proposals through a competitive process. An embassy committee,
coordinated by the economic section, evaluates proposals and decides awards. The embassy and
the Bureau of Near Eastern Affairs jointly developed a program statement and procedures to
select and monitor grantees. A grants management team provided training in Baghdad. These
steps reflect well on collaboration between the embassy and the Department, while supporting
competition, transparency, and oversight.

        Current staffing in the economic and political sections is not sufficient to provide grants
officer representatives for all the contemplated Ambassador’s Fund grants. The fund’s program
statement indicates that the majority of awards will be in the $200,000 to $500,000 range, which
could result in more than 20 grants. An embassy grants officer representative can manage one or
two grants adequately as a collateral duty. Monitoring requirements could be met by identifying
more Washington-based grants officer representatives, but the Bureau of Near Eastern Affairs
has stated that it does not intend to provide Ambassador’s Fund grants officer representatives.
The grants committee will have to award fewer, but larger, grants if the embassy needs to
provide all the grants officer representatives.

Recommendation 23: Embassy Baghdad, in coordination with the Bureau of Near Eastern
Affairs, should agree on the number of Ambassador’s Fund grants for which the embassy can
provide grants officer representatives. (Action: Embassy Baghdad, in coordination with NEA)

International Narcotics and Law Enforcement Programs

        INL programs have strengthened Iraq’s capacity for evidence-based investigations and
prosecutions. With the 2012 decision to terminate the Police Development Program, INL’s
staffing will shrink from about 100 to 2 officers and 5 local staff by September 2013. The new
staffing level is sufficient to manage prospective programs. The section is arranging to cover
monitoring and evaluation through another, existing NEA contract.

        The section has undergone an orderly transition, characterized by regular, task-oriented
meetings and good communication with Washington. A SharePoint platform to track program
close out shows 34 of 35 tasks either completed or on schedule.17 Staff are preparing end-of-
mission and lessons learned reports for the Police Development Program. The Department has
approved continuing annual assistance for anti-corruption, the justice sector, drug demand
reduction and police, with $23 million requested for FY 2014. The section has drafted a request
for proposals to be posted on www.grants.gov.


17
  This report does not cover disposition of INL property. The OIG Middle East and Regional Office (MERO) is
conducting a property audit.
                                           40
                               SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

Anti-Terrorism Assistance Program

        The Department provides about $5 million per year in anti-terrorism assistance, with
separate training for Government of Iraq and the Kurdistan Regional Government personnel.
Last year, Anti-Terrorism Assistance funded the training of 490 participants. The embassy has
improved relations with the Iraqis by naming a liaison officer for the program and identifying a
high-level point of contact on the Iraqi side. Training will take place in Iraq this year for the first
time, satisfying an Iraqi concern about sending personnel abroad for training. Late receipt of
names for Leahy vetting is a continuing problem and has led to postponement or cancellation of
courses. Still, the program provides valuable training and shows promise of being on a more
solid footing.

        The standard letter offering anti-terrorism training states that the trainees selected for the
course “should remain in their position for a minimum of 2 years.” This condition is intended to
ensure that training builds capacity in host country organizations. The embassy does not verify
whether personnel receiving Anti-Terrorism Assistance-funded training remain in their positions.

           Informal Recommendation 15: Embassy Baghdad should periodically verify that
           personnel who receive antiterrorism assistance training remain in their positions for 2
           years.

Humanitarian Mine Action

       Because of staffing gaps in the political-military affairs section caused by curtailments,
Embassy Baghdad has not given adequate attention to ongoing humanitarian mine action
programs, funded at $20 million per year through the Bureau of Political-Military Affairs. In
some respects, the situation still resembles that described in the 2010 inspection report on the
program.18 The embassy has not met with the Iraqi directorate for mine action. Staff assisted one
implementing partner to resolve problems with the authorities over visas for expatriate experts
and to maintain its registration as a nongovernmental organization but has had minimal contact
with the other six implementing parties. Because of security risks, no one from the embassy or
program bureau has done a site visit in a year; monitoring depends on reports from implementing
partners. The embassy has not conducted any demining program public diplomacy activities in
recent memory.

Recommendation 24: Embassy Baghdad, in coordination with the Bureau of Political-Military
Affairs, should develop a work plan to monitor and publicize the humanitarian mine action
program. (Action: Embassy Baghdad, in coordination with PM)




18
     Inspection of Humanitarian Mine Action Programs in Iraq, OIG Report Number ISP-I-10-41, June 2010.

                                             41
                                 SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Stewardship of U.S. Government Resources
        In a recent report on Iraq reconstruction, the Special Inspector for Iraq Reconstruction
highlighted an array of deficiencies that led to waste and mismanagement in the expenditure of
$61 billion in Iraq reconstruction funds.19 Projects from the Iraq reconstruction era are ending,
but the embassy operates in an environment subject to the same program management challenges
identified by oversight entities in the past decade. Embassy activities that are vulnerable to waste
and mismanagement include grants and foreign assistance programs, construction management,
contract management, and property management. The lack of a contract management program,
frequent employee turnover associated with 1-year tours, missing or incomplete records of
contractor property, insufficient oversight of contractor invoices, and difficulties in designating
grants officer representatives and developing monitoring plans remain ongoing problems. The
charge d’affaires noted several of these issues in the annual statement of assurance signed on
July 13, 2012. The embassy has made progress in reducing cash payments, ensuring proper
controls on employee travel, and instituting standard internal controls processes in many areas.

Construction Planning and Oversight

         Since the departure of combat troops, the mission has focused on consolidating facilities
and closing dozens of former military installations countrywide. In the last several months, the
administration made a number of policy decisions to eliminate programs and close facilities,
which resulted in the Department terminating construction projects in whole or in part before
occupancy. These policy shifts stretched the Department’s planning capacity and the mission’s
ability to redirect resources. For example, at the Erbil Diplomatic Support Center, the
Department canceled ongoing construction in February 2013, after expenditures of
approximately $85 million, with the decision to cease Department operations at the location by
July 2013. In September 2012, with the reduction of the Police Development Program, the U.S.
Government turned over the unfinished Baghdad Police Academy to the Government of Iraq
after investing an estimated $108 million in construction. In addition, the Department contributed
$48 million in Police Development Program funds to the construction of the Basrah consulate
general, because the Police Development Program intended to be a tenant in that facility. During
the inspection, in preparation for turnover to the Government of Iraq, mission operations drew
down at Embassy Annex Prosperity, where a $32 million construction project was halted. The
final phase of the Prosperity site closure requires construction of a new $11.5 million heavy
vehicle maintenance facility on the embassy compound.

Construction Project Oversight

        The frequent rotation of temporary duty OBO project directors at Consulate General
Basrah and the Erbil Diplomatic Support Center disrupted oversight and contributed to delays of
more than 1 year in project completion at these locations. Over the life of BDSC construction
projects, valued at $202.7 million, a total of 13 temporary duty project managers have rotated in
and out. On the embassy compound, the 568-bed east end housing project lags 6 months behind.
Poor contractor performance, delays in material shipments, and weak coordination among
19
 Iraq Reconstruction: Lessons Learned from Auditing U.S.-funded Stabilization and Reconstruction Activities.
October 2012.
                                           42
                               SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

competing projects also affected project delivery at multiple sites in Iraq. Regulations in 15 FAM
1012.4 require the Department to assign full-time project direction staff for capital construction
and major rehabilitation projects. Also, the Benghazi Accountability Review Board
recommended that the Department assign critical personnel at high-risk, high-threat missions to
1-year assignments. In part because of a lack of consistent oversight, construction quality and
schedules have suffered, and projects critical to security in Iraq have been delayed.

Recommendation 25: The Bureau of Overseas Buildings Operations should assign long-term
project managers for major construction projects in Iraq to a minimum 1-year tour of duty.
(Action: OBO)

Bureau of Overseas Buildings Operations Master Plan

        The Bureau of Overseas Buildings Operations (OBO) has not updated its 2009
comprehensive plan to coordinate and prioritize Iraq construction in response to reduced staffing
and revised policy assumptions. Given the pace of the mission’s downsizing, the reevaluation of
Iraq policy, and the long lead time for construction planning, it has been difficult for OBO to
adjust to changing requirements. During the inspection, the embassy and OBO were debating the
necessity of an $89 million power plant project on the chancery compound and the need for
additional leased office space in Erbil. The embassy and OBO have not reached a mutually
agreed set of construction priorities. As the embassy moves to normalized status, the era of vast
construction projects is coming to a close.

         Under 1 FAM 283.1, OBO’s responsibilities include preparing master plans providing a
comprehensive overview of a mission’s facilities requirements. Mission Iraq urgently needs a
coordinated, long-term plan because of exceptionally high operating costs at the consulates,
substandard housing, and security concerns associated with occupancy of temporary office
facilities that do not comply with Overseas Security Policy Board standards in BDSC, Erbil, and
Basrah. The embassy and Consulate General Basrah occupy more than 100 acres each, while the
BDSC site totals 350 acres. A typical new embassy compound sits on approximately 10 acres.
The OBO Guide to Design Excellence promotes sustainability as a key principle to ensure
diplomatic buildings and sites are economical to operate and maintain. As Mission Iraq begins to
operate in a traditional diplomatic environment, maintenance and repair costs will come out of
the regular budgets. The large Iraq footprints, expensive to guard and maintain even after glide
path, will strain support for diplomatic facilities worldwide when special appropriations that fund
them end. The need for a long-term master plan to sustain diplomatic facilities throughout Iraq,
linked to foreign policy priorities and staffing requirements, will be discussed further in a pending
audit report (Audit of the U.S. Mission Iraq Staffing Process, AUD-MERO-13-33). Such a plan
would require periodic review and updates to reflect further changes in priorities and
requirements.

Contract Management

       The Department does not have in place procedures to assign and regularly update
contract management responsibilities for high-value Iraq contracts. The Department’s electronic
system for tracking training and certification of contracting officer’s representatives and
government technical monitors lists 32 contracting officer’s representatives in Iraq, 17 of whom
                                                 43
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

no longer worked in the mission at the time of the inspection. The system does not contain any
government technical monitors, who assist with technical monitoring, advice, substantive
guidance, inspections, and assistance and are subject to professional training and certification
requirements equal to those of contracting officer’s representatives. In addition, the embassy
itself does not maintain a complete list of employees who perform contracting officer’s
representative responsibilities. As required in the Department’s Acquisition Regulations 642.270
and 642.271, contracting officers must designate formally and in writing contracting officer’s
representatives and government technical monitors. Without formal designation, embassy
personnel who work on contract management do not have authority to review invoices and
monitor contractor performance.

Recommendation 26: The Bureau of Administration, in coordination with Embassy Baghdad,
should implement a system to designate contracting officer’s representatives and government
technical monitors for all Office of Acquisitions Management contracts in Iraq on a quarterly
basis and notify the embassy accordingly. (Action: A, in coordination with Embassy Baghdad)

Contracting Officer’s Representatives and Government Technical Monitors

        Contract management and accountability personnel resources are inadequate to oversee
mission contracts. For example, four general services officers manage approximately 30 large
Office of Acquisitions Management contracts with a total value of more than $5 billion. Most
contracting officer’s representatives have primary duties other than contract management. Of the
contracts that require oversight, 11 have individual values between $250,000 and $5 million,
requiring Level II contracting officer’s representative oversight. Nineteen contracts have
individual values greater than $5 million with a total value of $4.7 billion, requiring contracting
officer’s representatives with Level III certification. Contracts include cell phone services,
expediter services, local subject matter experts, linguists, Iraqi cultural advisors, and hazardous
waste recycling.

       Although most contracting officer’s representatives have met the Department’s training
requirements, many possess neither the subject matter expertise nor the technical skills needed to
monitor task orders and contracts as required by the Department of State Acquisition Regulations
642.270. The Department’s 2011 Human Rights Report cites “rampant corruption at all levels of
government and society” as a major problem in Iraq, making contract oversight more difficult.
Improper monitoring increases the risk of fraud, the receipt of poor quality goods and services,
and overpayments to contractors.

Recommendation 27: The Bureau of Administration, in coordination with Embassy Baghdad,
should appoint qualified government technical monitors for Office of Acquisitions Management
contracts to assist contracting officer’s representatives. (Action: A, in coordination with
Embassy Baghdad)

Trafficking in Persons Monitoring

       Although mission contracts contain the required Federal Acquisition Regulation 52.222-
50 clause, Preventing Trafficking in Persons, contracting officers and contracting officer’s
representatives do not monitor contractors properly for trafficking in persons violations. The
                                                44
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

OIG team received reports of employees held in country without pay while awaiting exit visas
and of leave practices noncompliant with Iraqi labor codes. Although these issues alone do not
constitute “trafficking,” they can be indicators of potential abuses. The use of third country labor
and employer-provided housing in Iraq increases risks. Lack of training, heavy workloads, and a
dangerous security situation that restricts off-site inspections prevent contract managers from
fulfilling responsibilities outlined in the Office of the Procurement Executive Procurement
Information Bulletin No. 2011-09. Without a structured trafficking in persons monitoring
program, mission contractors could engage in illegal trafficking activities, contrary to the
Department’s zero tolerance policy for recipients of federal funds.

Recommendation 28: Embassy Baghdad, in coordination with the Bureau of Administration,
should implement a trafficking in persons monitoring program for all Department contracts.
(Action: Embassy Baghdad, in coordination with A)

Personal Property Management

        As noted in the 2009 OIG inspection report, accountability for personal property at the
mission is weak. At the time of the inspection, the general services sections in Baghdad, Erbil,
and Basrah were inventorying Department property and reconciling missing items, some of
which had not been reconciled since 2009, with a goal of compiling a clean baseline inventory
for the future. In addition, inaccurate and incomplete records of DOD-transferred property
complicate accountability. For example, the mission is unable to locate 172 items valued at $8.7
million, including generators and other equipment, marked as DOD transfers in the embassy’s
property database. OIG’s Office of Audits is conducting an audit of personal property
management in Mission Iraq.

Standard Business Applications

         U.S. diplomatic missions use standard Department-mandated online systems, including
the Post Administrative Software Suite and the Integrated Logistics Management System, to
support administrative functions, maintain internal controls, inform budgets, and report data to
Washington. In Iraq, the embassy and consulates do not consistently use the common electronic
platforms for supply chain, real estate, and facilities maintenance. In some cases, the mission has
not installed the systems or identified and trained local staff to use them. For example, at
Consulate General Erbil, which manages more than 40 functional and residential short-term
leases, no local staff member is trained to update the Real Property Application database as
required by 15 FAM 141. Likewise, the Erbil facilities maintenance section does not use Work
Orders for Windows, mandated in 15 FAM 141.2, for planning and managing maintenance
activities. The consulates general in Basrah and Erbil do not have complete access to the
Integrated Logistics Management System, required by 14 FAM 414.2-1 and 14 FAM 437.2, for
controlling the inventory of nonexpendable property, expendable supplies, and vehicles. The
embassy itself lacks the Department’s latest expendables control program.

       The Department’s new Baghdad Life Support Services contract and the Operations and
Maintenance Support Services contract, which will be implemented during 2013, require the
contractors to use the Department’s standard programs to control property inventories and handle
maintenance requests. In addition, as the mission moves next year to implement the ICASS
                                                45
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

model, accurate data from these automated systems ensures fair distribution of administrative
services costs among all agencies. Internal management controls suffer without the proper use of
standard automated systems. Similarly, normalized operations and customer service
improvements depend on deploying these systems. Incomplete records cause inaccuracies in the
Department’s annual report to the President on internal controls, which is required under the
Federal Managers’ Financial Integrity Act, and other consolidated reports to Congress and the
Office of Management and Budget.

Recommendation 29: Embassy Baghdad, in coordination with the Bureau of Administration
and the Bureau of Overseas Buildings Operations, should deploy the Post Administrative
Software Suite and Integrated Logistics Management System applications at all mission
locations and identify and train local employees to use them. (Action: Embassy Baghdad, in
coordination with A and OBO)

Safety, Health, and Environmental Management

       The embassy lacks a structured safety, health, and environmental loss control program
required by 15 FAM 961. The embassy has established a safety, health, and environmental
management committee, but it does not meet semi-annually as required by 15 FAM 933.2 a. The
committee met last in January 2012. Two Tier I report recommendations, one an updated motor
vehicle safety policy required by 15 FAM 957.3, remain unresolved. The latest fire inspection
was in April 2011. Many of the fire report recommendations remain unresolved.

       Informal Recommendation 16: Embassy Baghdad should convene a safety, health, and
       environmental management committee meeting to develop a comprehensive safety,
       health, and environmental management program for the embassy and consulates.

Internal Controls on Erbil Government Food Service Contracts

        The embassy has not established adequate internal controls for its chit-based food service
system at Consulate General Erbil, known as “Ankawa Bucks.” The consulate general
noncompetitively awards about $1.3 million through blanket purchase agreements to local
vendors to provide food service. The chits are not sequentially numbered or stored in a secure
container. Further, the same employee responsible for the physical inventory control of the chits
is responsible for requesting chit printing, distribution of chits to American employees, and
reconciliation of payments to vendors at the end of every month, a violation of regulations on the
separation of duties between the inventory and ordering functions. The lack of internal controls
for the chits, similar to those that would apply to fuel coupons or government travel requests,
raises the risk of fraud or misuse. The lack of competitively awarded contracts that include terms
and conditions for providing government-furnished food to employees is inconsistent with
procurement regulations and does not protect the government’s interests from misuse.

Recommendation 30: Embassy Baghdad should establish proper internal controls for the
Ankawa Bucks program. (Action: Embassy Baghdad)



                                       46
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Erbil Electrical System

        The Erbil compound electrical system is substandard and represents a safety hazard. The
consulate general undertook several post-managed construction projects with little or no OBO
oversight and without considering the effect of those improvements on the compound’s electrical
grid. Multiple areas on the compound, for example, now have individual ground systems, but
none of the ground systems are tied together. This situation has caused a severe imbalance in the
electrical system that has thus far destroyed two pieces of security equipment and an
uninterruptable power supply. An OBO electrical engineer visiting the consulate general at the
time of the OIG inspection agreed that the electrical system needed to be surveyed and upgraded
to enhance employee safety and to avoid further damage to electrical equipment. The classified
annex discusses this issue in more detail.

Recommendation 31: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Baghdad, should make needed improvements to the electrical system at Consulate
General Erbil. (Action: OBO, in coordination with Embassy Baghdad)




                                       47
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Information Management
Information Management Program

         Even with a consolidated footprint after closing or reducing facilities and annexes,
Embassy Baghdad still has the largest information management program in the world, with 22
specialists. The information management unit’s services received solid customer reviews, both in
ICASS and OIG survey questionnaires. The information management officer has made several
management decisions that have resulted in significant cost savings. The unit is making progress
in the transition from DOD and contractor-based support systems to the customary Department
systems. This effort represents a major change in how the embassy conducts business.

       The OIG team identified several areas requiring attention, including the diplomatic mail
program, inventories, network consolidation, network infrastructure, and the laptop program.
Information security issues are covered in the classified annex. Section management
expeditiously resolved several issues the OIG identified during the inspection.

Information Programs Center

        The information programs center staff maintains normal operations despite a significant
staffing reduction and demanding work schedule. The center would function better with more
frequent staff meetings, better communication, and clearer direction. Although all of the
specialists share the same office suite, the staff does not feel included in program initiatives.
(b) (5)




        Nearly all position descriptions in the information programs center are outdated. As
staffing normalizes, job responsibilities are being reconfigured, making it essential for
management to define work requirements accurately. Good management practice dictates that
the position descriptions be updated to reflect organizational changes.

          Informal Recommendation 17: Embassy Baghdad should update the information
          management specialist position descriptions.

Inventories

        During the inspection, the information programs staff completed an annual inventory for
all reportable items on file and identified an 8.8 percent shortage in equipment. The OIG team
found that the previous year’s inventory was erroneous and did not document the missing
equipment, affecting, in turn, the baseline for the current year’s inventory. The inventory
custodians appear to have circumvented the 14 FAM 410 requirements for tracking,
inventorying, and reconciling information technology program property in the Department’s
Integrated Logistics Management System. It is admittedly difficult to address internal control
vulnerabilities when the information management program is in transition and equipment is
                                       48
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

scattered at multiple offsite locations. The information programs staff has begun drafting
standard operating procedures to avoid inventory control problems in the future.

Recommendation 32: Embassy Baghdad should implement standard operating procedures for
maintaining inventory controls of all information systems equipment. (Action: Embassy
Baghdad)

Information Systems Center

        The information systems center manages OpenNet for all mission sites in Baghdad, but
not all agencies under chief of mission authority currently have access to OpenNet. At the
information management officer’s direction, users from all agencies are migrating to
Department-owned networks in an effort to standardize operations, replace expensive contractor
positions with consolidated local staff, and reduce the overall information technology footprint.
OSC-I is in the process of migrating to OpenNet, and USAID is tentatively scheduled for
consolidation in the first quarter of FY 2014, according to a notional worldwide consolidation
schedule. The 2010 OIG inspection report of Embassy Kabul (ISP-I-10-32A) and Department
cable 30913 of May 29, 2010, outline the lessons learned on how to proceed with a successful
consolidation, including beginning with a project plan. Savings on contractor salaries and
support would be nearly $1 million annually in a consolidation if consolidation does take place
according to the notional schedule.

Recommendation 33: Embassy Baghdad, in coordination with the Bureau of Information
Resource Management, should consolidate the U.S. Agency for International Development
network into OpenNet and absorb the agency’s information technology local staff. (Action:
Embassy Baghdad, in coordination with IRM)

Switchboard Operations

       Two telephone operators staff the switchboard operation during normal business hours,
Sunday through Thursday. The embassy plans to extend service to Friday because of demand.
Consular-related calls account for most of the call volume. The telephone operators do not have
guidance for responding to consular calls. They direct callers to the consular portion of the
embassy Web site and other guidance available online, but the consular section has not provided
them any training or written standard operating procedures.

       Informal Recommendation 18: Embassy Baghdad should provide training and written
       standard operating procedures on consular issues to the telephone operators.

Network Operations

        At the time of the inspection, the mission was upgrading network circuitry for both the
classified and unclassified networks. The embassy was also seeking to fold services for all of its
various sites into one fixed-price, indefinite-delivery, indefinite-quantity contract, similar to the
contract awarded for countrywide transportation services. Such contracts are used worldwide
because they provide for centralized contract oversight and economies of scale. They also have
inherent flexibility that allows for different local vendors to bid on one or more segments of the
                                                   49
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

countrywide contract—ideal for a country like Iraq where one contractor cannot operate
countrywide because of infrastructure and licensing constraints stemming from the relationship
between the central government and the Kurdish Regional Government. In fact, the embassy’s
draft contract solicitation specifically provides for an unlimited number of orders and
performance at multiple locations. The embassy is, however, allowing Consulate General Erbil
to write its own contract with local vendors, despite the fact that the fixed-price, indefinite-
delivery, indefinite-quantity contract they are putting in place for the rest of the country is
designed for such a scenario. Setting up separate contracts with local Erbil vendors, when they
can bid on portions of the omnibus contract, is unnecessary and places contract oversight
responsibilities on the smaller consulate staff when the embassy is better able to carry out that
function.

Recommendation 34: Embassy Baghdad should add the Internet service contract for Consulate
General Erbil to the missionwide contract. (Action: Embassy Baghdad)

      Because the embassy’s backup connection is tied to a Government of Iraq-controlled
communications hub, the information management unit is also exploring a range of solutions for
backup operations.

Laptop Program

        The OIG team identified vulnerabilities in the mission’s laptop program. Several
unencrypted laptops were not included on the mission’s laptop inventory. Furthermore, several
laptops in the information systems center had the encryption keys (with user names and
passwords) taped directly on the equipment. Department cable 57406 of June 3, 2010, outlines
laptop inventory and encryption requirements to prevent data loss. Unsecure passwords defeat
the purpose of installing laptops with encrypted software. Information management staff has
acknowledged these deficiencies and has removed the taped passwords from all of their laptops.

          Informal Recommendation 19: Embassy Baghdad should implement a procedure for
          appropriately encrypting laptops in order to safeguard the security and integrity of the
          stored data.

Diplomatic Mail Program

        Embassy Baghdad’s diplomatic pouch program is approximately 14 months old. There
have been continual problems getting pouches and freight shipments through Iraqi customs
promptly, resulting in construction delays as well as personal and official mail delays. Some
delays appear to have resulted from missing paperwork, but others appear to be the result of poor
relationships and communications. In December 2012, the DCM and the Director General of the
Iraqi Commission of Customs met to resolve these problems. The Director General
recommended that the embassy establish a customs liaison who would receive Iraqi training to
enable a more efficient mail process.20 During the inspection, the embassy established a customs
liaison position and filled it with an Iraqi employee with customs experience.


20
     12 Baghdad 3646
                                          50
                              SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

                  There are no standard operating procedures for the embassy’s diplomatic mail operation.
          In July 2012, management reached an agreement with Iraqi authorities on a procedure for
          approving diplomatic mail crates through the Ministry of Foreign Affairs, but management did
          not communicate the agreement with working-level staff. For example, the information programs
          officer was not aware of the agreement or the procedure for approving incoming mail crates that
          he could have used to facilitate other pouch mail. The OIG team counseled management on
          solutions, including documenting procedures.
(b) (5)




          Recommendation 35: (b) (5)



          Consulate General Basrah Information Management

                  Consulate General Basrah’s information management program lacks operational
          procedures in many areas, including inventory management, classified pouch operations, and
          overall post communications center functionality. The information programs officer is not
          sufficiently involved in overall unit management, nor does she routinely seek guidance and
          support from the embassy’s information management team.

                The OIG team identified vulnerabilities in the consulate general’s media storage and
          backup media program. (b) (5)




          Consulate General Erbil Information Management

                  Consulate General Erbil’s systems operations are well maintained, and staff has
          undertaken significant projects to improve network infrastructure. Embassy Baghdad provides
          regularly scheduled support visits in addition to some remote oversight. The systems staff
          participates in regularly scheduled digital video conferencing with Baghdad, Basrah, and BDSC.

                 The WebPASS system operates a number of Department applications. The previous
          information management team successfully established several applications, but the system was
          shut down under the assumption that the consulate general would be connecting to Baghdad’s
          WebPASS database, which never happened. Consequently, the consulate general did not have
                                                        51
                                   SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

access to several important applications, including the e-Services and visitor management
applications. To their credit, management expeditiously resolved the issue by reestablishing the
WebPASS system during the inspection.

Mail Policy

         The consulate general’s diplomatic mail program is in transition, with plans to relocate
the mailroom to more suitable office space. The OIG team identified a number of instances of
unauthorized use by both contractors and direct-hire personnel, including ordering supplies for
resale by the commercial vendors on the compound. Only authorized personnel who meet the
criteria identified in 14 FAM 724.2 may use the diplomatic post office. An established
diplomatic mail policy would inform consulate staff of approved usage and regulations and
eliminate the likelihood of abuse.

Recommendation 36: Embassy Baghdad should establish and enforce a diplomatic mail policy
for use of the diplomatic mail room at Consulate General Erbil. (Action: Embassy Baghdad)




                                       52
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Work Place Environment
Recreation and Community Building

        Despite expeditionary working conditions, morale in the mission is satisfactory.
Employees participate in a wide range of recreational activities. The community liaison office
sponsors on-compound bazaars, educational lectures, and sporting events. Rest and recuperation
trips mitigate the stresses of shared dormitory-style housing to a degree. Housing remains the
single largest morale issue, and the embassy employs two social workers to mediate roommate
conflicts associated with a housing shortage that requires, at least temporarily, housing as many
as four employees in apartments designed for one person. Living conditions at the consulates are
especially difficult.

Housing

         With the exception of the chief of mission residence, the DCM residence, and Marine
quarters, housing throughout Mission Iraq is not normal. Poor mission housing reduces
employees’ willingness to extend their tours to 2 years. Because of a housing shortage on the
embassy compound, except for a minority of employees living alone or with their spouses who
are also employees, most residents in the six apartment buildings share their originally one-
bedroom, one-bath apartments with at least one other employee. Currently, only employees
ranked FS-01 or GS-15 and above occupy private quarters. The roommate policy will continue
as sites close and more personnel consolidate on the embassy compound in the 619 apartments.

        At Consulate General Erbil, most employees live in leased group houses, sharing
bathrooms and common space with other employees. The physical size of the secure compound
limits the number of houses available, and crowding will worsen as more employees move onto
the compound with the closure of the Erbil Diplomatic Support Center. At BDSC and Consulate
General Basrah, employees live in cramped containerized housing units. Currently, most
employees occupy their own unit with a bathroom but no cooking facilities. No long-term plan
exists to bring housing closer to Department standards. The need for better long-term housing,
addressed in a recommendation earlier in this report, is acute.

Recreation Association Operational Issues

         The American Embassy Baghdad Employees Association expects to take over morale
support activities when DOD’s exchange service departs at the end of FY 2013. Currently, the
association lacks the capacity and expertise needed to manage the transition. It has only two
employees and is not in compliance with basic internal controls requirements applicable to
associations. The departure of DOD’s exchange service will mark the end of DOD logistical
support to commissary operations. DOD’s exchange service provides embassy employees access
to a range of goods not available on the local market. DOD’s access to military logistics channels
and experience in shipping controlled and perishable items to Iraq will be difficult to replace in
the short term. Further, the Department expects to end subsidies from appropriated funds that
totaled $1.7 million in FY 2013. The association will be taking on a range of new responsibilities
critical to morale but lacks a business plan to expand operations and stabilize internal controls.
                                                  53
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 37: Embassy Baghdad, in coordination with the Bureau of Administration,
should identify a long-term temporary duty employee or association manager from another
mission to develop a viable business plan for the employee association. (Action: Embassy
Baghdad, in coordination with A)

Recreation Association Internal Controls

        Internal controls over association assets, to include its stock of duty-free liquor, are not
adequate. The association has not submitted financial audits for the last 2 years, conducted
independent bank statement reconciliations, controlled cash appropriately, maintained inventory
control records, or ensured separation of duties in management responsibilities. In addition, the
embassy has not completed the annual statement of assurance, required by 6 FAM 554, that the
association is managed prudently and in conformance with the regulations. As a result, the board
cannot make informed decisions about the association’s activities and capacity for future
operations.

Recommendation 38: Embassy Baghdad, in coordination with the Bureau of Administration,
should establish a baseline inventory of assets, accounting system, and internal controls required
by the Foreign Affairs Manual for commissary operations. (Action: Embassy Baghdad, in
coordination with A)




                                        54
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of Near Eastern Affairs should request the Department’s
Executive Secretary to advise interagency counterparts to schedule meetings including Embassy
Baghdad Monday through Thursday and no later than 8:00 p.m. Baghdad time. (Action: NEA)

Recommendation 2: The Bureau of Diplomatic Security, in coordination with Embassy
Baghdad, should convene an interagency working group to complete a formal risk management
study and determine if current security countermeasures in Iraq are appropriate. (Action: DS, in
coordination with Embassy Baghdad)

Recommendation 3: Embassy Baghdad, in coordination with the Bureau of Near Eastern
Affairs, should decide on the size and the nature of the diplomatic platform needed in Basrah.
(Action: Embassy Baghdad, in coordination with NEA)

Recommendation 4: The Bureau of Overseas Buildings Operations should plan the new Erbil
consulate compound based on the 2013 rightsizing study. (Action: OBO)

Recommendation 5: Embassy Baghdad, in coordination with the Bureau of Overseas
Buildings Operations, should prepare an information memorandum for the Bureau of Near
Eastern Affairs outlining steps for an orderly closure of the Baghdad Diplomatic Support Center
and relocation of the facility’s functions. (Action: Embassy Baghdad, in coordination with OBO)

Recommendation 6: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
Administration, should implement Embassy Baghdad’s contract management transition plan
fully by establishing new positions and recruiting and training qualified personnel to oversee the
full range of Department contracts at the mission. (Action: NEA, in coordination with A)

Recommendation 7: Embassy Baghdad should use public affairs and other section events and
contacts to broaden their recruitment efforts. (Action: Embassy Baghdad)

Recommendation 8: Embassy Baghdad should assign an employee to the human resources
unit to brief current and prospective employees on the vetting process and assist with document
completion. (Action: Embassy Baghdad)

Recommendation 9: Embassy Baghdad should revise the mission’s training policy to require
third country national employees to provide on-the-job training to Iraqi staff. (Action: Embassy
Baghdad)

Recommendation 10: Embassy Baghdad should require all supervisors to prepare and
implement training plans for Iraqi staff. (Action: Embassy Baghdad)

Recommendation 11: Embassy Baghdad, in coordination with the Bureau of Administration
and the Bureau of Diplomatic Security, should conduct a countrywide fleet review to define how
many vehicles Mission Iraq actually needs. (Action: Embassy Baghdad, in coordination with A
and DS)


                                       55
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 12: Embassy Baghdad should prepare an annual advance acquisition plan.
(Action: Embassy Baghdad)

Recommendation 13: Embassy Baghdad should develop recommendations to Washington on
how to address money laundering and terrorist financing in Iraq. (Action: Embassy Baghdad)

Recommendation 14: Embassy Baghdad should post all of its FY 2012 grants, as well as
current grants, into the Grants Database Management System. (Action: Embassy Baghdad)

Recommendation 15: Embassy Baghdad should issue an annual program statement for public
diplomacy grants and post it on www.grants.gov. (Action: Embassy Baghdad)

Recommendation 16: Embassy Baghdad should implement a plan to manage the Iraqi cultural
advisors contract consistent with Federal Acquisition Regulations and good management
practices, to include a qualified government technical monitor to approve time sheets and
expenses; regular face-to-face meetings between the advisors and their managers; and annual
performance evaluations. (Action: Embassy Baghdad)

Recommendation 17: Embassy Baghdad should assess the number of advisors needed to
support mission requirements. (Action: Embassy Baghdad)

Recommendation 18: Embassy Baghdad, in coordination with the Bureau of Consular Affairs
and the Bureau of Population, Refugees and Migration, should alert pending applicants about the
potential termination of the Iraqi special immigrant visa program on September 30, 2013.
(Action: Embassy Baghdad, in coordination with CA and PRM)

Recommendation 19: Embassy Baghdad should return the Iraqi passports of special
immigrant visa program applicants. (Action: Embassy Baghdad)

Recommendation 20: The Bureau of Consular Affairs should authorize the Baghdad consular
section chief to review Erbil visa adjudications. (Action: CA)

Recommendation 21: Embassy Baghdad should classify both locally employed staff positions
at Consulate General Erbil as FSN-08 and cross train the two incumbents. (Action: Embassy
Baghdad)

Recommendation 22: The Office of U.S. Foreign Assistance Resources should require that all
implementing mechanisms for assistance to Iraq indicate in operational plans how they will
comply with the 2009 guidelines on Government of Iraq financial participation. (Action: F)

Recommendation 23: Embassy Baghdad, in coordination with the Bureau of Near Eastern
Affairs, should agree on the number of Ambassador’s Fund grants for which the embassy can
provide grants officer representatives. (Action: Embassy Baghdad, in coordination with NEA)

Recommendation 24: Embassy Baghdad, in coordination with the Bureau of Political-Military
Affairs, should develop a work plan to monitor and publicize the humanitarian mine action
program. (Action: Embassy Baghdad, in coordination with PM)


                                      56
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 25: The Bureau of Overseas Buildings Operations should assign long-term
project managers for major construction projects in Iraq to a minimum 1-year tour of duty.
(Action: OBO)

Recommendation 26: The Bureau of Administration, in coordination with Embassy Baghdad,
should implement a system to designate contracting officer’s representatives and government
technical monitors for all Office of Acquisitions Management contracts in Iraq on a quarterly
basis and notify the embassy accordingly. (Action: A, in coordination with Embassy Baghdad)

Recommendation 27: The Bureau of Administration, in coordination with Embassy Baghdad,
should appoint qualified government technical monitors for Office of Acquisitions Management
contracts to assist contracting officer’s representatives. (Action: A, in coordination with
Embassy Baghdad)

Recommendation 28: Embassy Baghdad, in coordination with the Bureau of Administration,
should implement a trafficking in persons monitoring program for all Department contracts.
(Action: Embassy Baghdad, in coordination with A)

Recommendation 29: Embassy Baghdad, in coordination with the Bureau of Administration
and the Bureau of Overseas Buildings Operations, should deploy the Post Administrative
Software Suite and Integrated Logistics Management System applications at all mission
locations and identify and train local employees to use them. (Action: Embassy Baghdad, in
coordination with A and OBO)

Recommendation 30: Embassy Baghdad should establish proper internal controls for the
Ankawa Bucks program. (Action: Embassy Baghdad)

Recommendation 31: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Baghdad, should make needed improvements to the electrical system at Consulate
General Erbil. (Action: OBO, in coordination with Embassy Baghdad)

Recommendation 32: Embassy Baghdad should implement standard operating procedures for
maintaining inventory controls of all information systems equipment. (Action: Embassy
Baghdad)

Recommendation 33: Embassy Baghdad, in coordination with the Bureau of Information
Resource Management, should consolidate the U.S. Agency for International Development
network into OpenNet and absorb the agency’s information technology local staff. (Action:
Embassy Baghdad, in coordination with IRM)

Recommendation 34: Embassy Baghdad should add the Internet service contract for
Consulate General Erbil to the missionwide contract. (Action: Embassy Baghdad)

Recommendation 35: (b) (5)




                                      57
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 36: Embassy Baghdad should establish and enforce a diplomatic mail
policy for use of the diplomatic mail room at Consulate General Erbil. (Action: Embassy
Baghdad)

Recommendation 37: Embassy Baghdad, in coordination with the Bureau of Administration,
should identify a long-term temporary duty employee or association manager from another
mission to develop a viable business plan for the employee association. (Action: Embassy
Baghdad, in coordination with A)

Recommendation 38: Embassy Baghdad, in coordination with the Bureau of Administration,
should establish a baseline inventory of assets, accounting system, and internal controls required
by the Foreign Affairs Manual for commissary operations. (Action: Embassy Baghdad, in
cordination with A)




                                       58
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Baghdad should instruct sections and other mission
elements to record accomplishments and remaining tasks for their successors systematically.

Informal Recommendation 2: Embassy Baghdad should implement a strategy, with
appropriate milestones, to ensure future access to the embassy for employees, refugees, consular
customers, and other visitors.

Informal Recommendation 3: Embassy Baghdad should verify that educational and work
experience requirements in each job vacancy announcement are matched to the job requirements.

Informal Recommendation 4: Embassy Baghdad should conduct a joint logistics workshop to
improve communication among the consulates and offshore locations, coordinate advance
acquisition planning, and train local staff on mission-specific procurement and logistics
procedures.

Informal Recommendation 5: Embassy Baghdad should require all officers assigned to the
political-military section to attend the Political-Military Affairs course PP505 at the Foreign
Service Institute unless they have significant prior political-military affairs experience.

Informal Recommendation 6: Embassy Baghdad should reorganize the political-military
section to reflect current staffing and roles.

Informal Recommendation 7: Embassy Baghdad should reassign the contract employee
funded by the Bureau of International Security and Nonproliferation to the political-military
section.

Informal Recommendation 8: Embassy Baghdad should make more use of programs, such as
paper shows, that do not require American officer participation at the American Corners.

Informal Recommendation 9: Embassy Baghdad should make training of locally employed
consular staff a priority, including online and hands-on training opportunities.

Informal Recommendation 10: Embassy Baghdad should increase the frequency of the
consular shuttle service.

Informal Recommendation 11: Embassy Baghdad should identify choke points in consular
processing and adopt strategies to ease them.

Informal Recommendation 12: Embassy Baghdad should establish the mission assistance
coordination group as a standing body with a regular meeting schedule and terms of reference.
                                               59
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 13: Embassy Baghdad should require all employees serving as
grants officer representatives to take grants training and become certified.

Informal Recommendation 14: Embassy Baghdad should inform Department program offices
what support it is able to provide to monitor assistance awards under consideration, including
staff time, travel, and visit support.

Informal Recommendation 15: Embassy Baghdad should periodically verify that personnel
who receive antiterrorism assistance training remain in their positions for 2 years.

Informal Recommendation 16: Embassy Baghdad should convene a safety, health, and
environmental management committee meeting to develop a comprehensive safety, health, and
environmental management program for the embassy and consulates.

Informal Recommendation 17: Embassy Baghdad should update the information management
specialist position descriptions.

Informal Recommendation 18: Embassy Baghdad should provide training and written
standard operating procedures on consular issues to the telephone operators.

Informal Recommendation 19: Embassy Baghdad should implement a procedure for
appropriately encrypting laptops in order to safeguard the security and integrity of the stored
data.




                                       60
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                   Name       Arrival Date
Ambassador                                            R. Stephen Beecroft            07/11
Deputy Chief of Mission                               Douglas A. Silliman            08/11
Assistant Chief of Mission Law Enforcement/Rule
of Law                                                       James Knight           07/12
Constituent Posts:
   Basrah, Principal Officer                                William Grant           09/12
   Erbil, Principal Officer                                  Paul Sutphin           07/12
   Kirkuk, Principal Officer                                Jeffrey Zaiser          06/12
Chiefs of Sections:
   Management                                             Barbara Aycock            07/12
   Consular                                               Michael Garrote           07/12
   Political                                             Anthony Godfrey            08/12
   Political-Military                                      Deborah Jones            06/12
   Economic                                                    Steve Zate           08/12
   Public Affairs                                           Benjamin Ziff           08/12
   Regional Security                                         Mark Hunter            06/11
   INL                                                        Steve Fagin           08/12
   Refugees and Internally Displaced                       Stewart Devine           10/12
   Overseas Buildings Operations                             Phillip Barth          10/12
Other Agencies:
   Department of Transportation                   Dr. Firas Sheikh-Ibrahim          01/13
   Department of Commerce                                    Christian Reed         09/12
   Department of Treasury                                     Carol Cohen           10/12
   Defense Attaché Office                             Charles (Tony) Pfaff          11/12
   Department of Justice                                      Michael Lahr          08/12
   OIG                                                     Gerald Montoya           07/10
   Office of Security Cooperation-Iraq              General Robert Caslen           09/11
   U.S. Agency for International Development                     Tom Staal




                                     61
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
BDSC             Baghdad Diplomatic Support Compound

DCM              Deputy chief of mission

Department       Department of State

DOD              Department of Defense

ICASS            International Cooperative Administrative Support Services

INL              Bureau of International Narcotic and Law Enforcement Affairs

IOM              International Organization for Migration

OBO              Bureau of Overseas Buildings Operations

OSC-I            Office of Security Cooperation-Iraq

USAID            U.S. Agency for International Development




                            62
                SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Appendix 1
      Ongoing Capital Construction Projects,                                         Contract Value
                     March 2013
SAQMMA-11-D-0023 Basrah Consulate General                                              $122,500,000
SPAWAR Basrah Tactical Operations Center                                                $10,500,000
SAQMMA-11-D-0027 BDSC Air Hub                                                           $92,000,000
SAQMMA-10-C-0325 East End Housing                                                       $74,800,000
SAQMMA-12-C-0280 Annex II Major Rehabilitation                                          $19,600,000
SAQMMA-12-F-4826 Vehicle Maintenance                                                     $8,000,000
Power Plant & Utility Upgrade                                                           $89,000,000
SAQMMA-11-D-0222 EDSC Air Hub                                                           $58,000,000
SPAWAR Ankawa Tactical Operations Center                                                $11,000,000
Total                                                                                  $485,400,000
           Source: Embassy Baghdad. Data does not include additional locally managed construction projects.




                                        63
                            SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
